APPENDIX TABLE OF CONTENTS
Opinion of the United States Court of Appeals for
the Sixth Circuit (October 6, 2020) .................... 1a
Concurring Opinion of Justice Gibbons........... 30a
Concurring Opinion of Justice Murphy ........... 33a
Order of the United States District Court
for the Middle District of Tennessee
(June 25, 2019) ................................................. 51a
Judgment in a Civil Case
(June 25, 2019) ................................................. 84a
Verdict Form
(June 24, 2019) ................................................. 86a
Special Verdict Form
(June 24, 2019) ................................................. 88a
Order of the United States Court of Appeals
for the Sixth Circuit Denying Petition for
Rehearing En Banc (November 6, 2020) ......... 91a

App.1a
OPINION OF THE UNITED STATES
COURT OF APPEALS FOR THE SIXTH CIRCUIT
(OCTOBER 6, 2020)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________
DANYELLE E. BENNETT,

Plaintiff-Appellee,
v.
METROPOLITAN GOVERNMENT OF NASHVILLE
& DAVIDSON COUNTY, TENNESSEE,

Defendant-Appellant.
________________________
No. 19-5818
Appeal from the United States District Court
for the Middle District of Tennessee at Nashville.
No. 3:17-cv-00630—Eli J. Richardson, District Judge.
Before: DAUGHTREY, GIBBONS, and
MURPHY, Circuit Judges.
MARTHA CRAIG DAUGHTREY, Circuit Judge.
At issue in this case is whether a public employee’s use of a racial slur when discussing politics on
Facebook is sufficiently protected by the First Amendment to outweigh a government agency’s interest in
having an efficient workplace and effectively serving
the public. Plaintiff Danyelle Bennett was terminated

App.2a
from her position at the Emergency Communications
Center (ECC) of the Metropolitan Government of
Nashville (Metro) for a Facebook comment she made on
November 9, 2016. On the night of the Presidential
election, Bennett posted from her public-facing Facebook
profile concerning Trump’s victory. In response to someone else’s comment, Bennett replied using some of the
commenter’s words: “Thank god we have more America
loving rednecks. Red spread across all America. Even
niggaz and latinos voted for trump too!” As a result of
Bennett—a white woman—using what Metro deemed
racially-charged language, several employees and a
member of the public complained to ECC leadership
and the Mayor’s office. ECC officials determined that
Bennett violated three Civil Service Rules and, after
paid administrative leave and a due process hearing,
they terminated her from her position. Bennett sued
Metro for retaliation under the First Amendment and,
following a jury trial that determined certain issues of
fact, the district court found in favor of Bennett.
Metro appeals, arguing that the district court gave
greater protection to Bennett’s speech than the law
warrants and improperly minimized the disruption
Bennett’s speech caused in the agency. A review of the
record reveals the district court erred in its analysis,
and we therefore reverse the district court’s decision
and remand for further proceedings.
FACTUAL AND PROCEDURAL BACKGROUND
Plaintiff Bennett began working for Metro’s ECC
as an Emergency Telecommunicator in 2001 and was
employed there for 16 years. Her role was to field
emergency calls, and she was also certified in emergency
medical dispatch and emergency fire dispatch. On the

App.3a
evening of November 8, 2016—Election Day—Bennett
anxiously awaited the results of the Presidential election, hoping for a win by the candidate she supported,
Donald Trump. She stayed up watching the results
until about 3:00 a.m. on November 9, when the electoral
votes for Trump reached 270. At that time, she made
a Facebook post from her public-facing profile of an
image of the electoral map revealing Trump as the
winner. Shortly thereafter, before Bennett went to bed,
she received a notification that Mohamed Aboulmaouahib—a man she did not know— commented on her post,
writing that “Redneck states vote[d] for Trump, niggaz
and latinos states vot[ed] for hillary.” She replied:
“Thank god we have more America loving rednecks. Red
spread across all America. Even niggaz and latinos
voted for trump too!” The following morning, Bennett
was off-duty when she received a notification that her
friend and former colleague had commented on her
post, asking “Was the niggaz statement a joke? I don’t
offend easily, I’m just really shocked to see that from
you.” Bennett replied, and several other comments
demonstrating offense to Bennett’s use of the racial
slur followed. At approximately 3:45 p.m., after Bennett’s friend and former colleague, Tamika Barker,
responded to the comment, Bennett spoke on the phone
with her and, as a result, deleted the entire Facebook
post.
During this same day, the Facebook comment also
became an issue at the ECC office. On the morning
of November 9, Lynette Dawkins, the Metro Human
Resources (HR) coordinator, began receiving complaints
about Bennett’s comment. Two ECC employees came to
her office upset and complained about a derogatory
comment on Facebook made by Bennett. She also

App.4a
received an anonymous text with a screenshot of Bennett’s comment to her post, asking “when is this ever
acceptable?” Dawkins informed her supervisor, Bruce
Sanschargrin, of these complaints when he arrived in
the office. He then opened Facebook, found Bennett’s
public post, and agreed that her comment on the post
was “racially offensive” and “degrading” towards both
African Americans and Caucasians. Sanschargrin then
contacted ECC director Michele Donegan to make her
aware of the complaints and how Metro employees were
being impacted. Shortly thereafter, Assistant Director
Angie Milliken came to his office. She also had received
reports about complaints and conversations over the
post; she noted that the office was unusually quiet that
day.
When Donegan arrived to Sanschargrin’s office, she
learned that Bennett not only identified herself as a
Metro employee in her Facebook profile, but also as
an ECC employee and a Metro Police Department
employee. Donegan became concerned about the potential impact Bennett’s use of racially charged language
could have on the workforce and determined that the
next step would be to have Sanschargrin reach out to
Bennett to have her remove the post and to speak with
her first thing in the morning.
Throughout that day, additional complaints were
made. Alisa Franklin, Emergency Telecommunicator
and chief steward of the Service Employees International
Union (SEIU), received multiple complaints, both in
person and over text messaging, complaining about
Bennett’s comment and use of the racial slur. Franklin
conveyed to her supervisor that, in addition to the
complaints she received, she, too, was shocked, hurt,
and disgusted by Bennett’s post. Donegan also received

App.5a
an email from the mayor’s office that included a complaint from a constituent. The mayor’s office specifically
questioned whether Bennett identified herself as a
Metro employee on her Facebook page. The complaint
contained a screenshot of the constituent’s Facebook
post showing only Bennett’s response and omitting
Aboulmaouahib’s, with a caption:
If you’ve called 911 & officers don’t get there
as quickly as you need them it may not be the
officer. And it may not have anything to do
with calls around the city. In fact it may be
the dispatcher that got your call. If your skin
is too dark your call may have just been placed
on the back burner. #WelcomeToNashville
#MusicCity #Metro.
The screenshot was accompanied by a statement:
These kind of derogatory statements are being
made by our own government here in Davidson
County. Despite everything else going on
across the country I’ve always had a sense of
hope for my city, Nashville. But after seeing
things in this light I don’t know anymore. I
want to know that my life is valuable and
that I will be protected just as well as any
other citizen despite the color of my skin.
Please fix this!
Sanschargrin also received a screenshot via text
message of the same cropped Facebook post with the
message “I just came across this post. I know it doesn’t
matter but this is an ex-employee throwing gasoline
on the fire.”
Later that afternoon Bennett returned Sanschargrin’s call. Sanschargrin asked Bennett to remove the

App.6a
post because several other employees had spoken to
him that day and were upset about it. She explained
that it had already been removed. He then asked
Bennett to come to work early the next day, prior to
roll call, to discuss the matter further with him and
Donegan.
The following morning Bennett met with Sanschargrin and Donegan. Bennett explained that her
comment on the post was a sarcastic response mocking
the comment by Aboulmaouahib. Sanchargrin, and
Donegan made clear that the language she used was
inappropriate and that it was viewed as racially charged.
Although Bennett acknowledged that other employees
appeared to be outwardly offended, she believed they
were just “playing the victim” and were not really
offended. Bennett claimed that she was the real victim
in the situation and resented being ganged up on.
Donegan was concerned by Bennett’s lack of remorse
about her language and by her failure to acknowledge
that it was an issue. It was only when Sanschargrin
said it was possible the situation could result in some
form of corrective or disciplinary action that Bennett
changed her tune. Bennett asked how to fix the situation
and offered to apologize to employees, but she declined
Donegan’s offer to issue an apology at roll call that
morning. In the end, Donegan decided to place Bennett
on paid administrative leave for a week or two to give
management time to investigate the matter and allow
the “uproar that had started to settle down.”
Donegan was concerned about the impact of
Bennett’s language on the dynamics of the office.
Communication between telecommunicators was
essential to the work they did and, after the racially
charged comment and the reactions of the employees,

App.7a
she was anxious about the team dynamics and the
creation of a racial divide. She directed Sanschargrin
to complete a summary of what had happened, investigate the facts, and identify any policies that Bennett
may have violated.
Conversations about the issue continued after
Bennett’s leave began. The following week, Donegan
received a call from the “second-in-command” for Metro
Human Resources telling her that some ECC employees
had come to his office with concerns. Franklin—in her
role as chief union steward—reported that there was
a level of general discomfort throughout the center and
that “things were not harmonious like they normally
were.” The union stewards again raised the issue at the
SEIU monthly meeting with Donegan. They described
a great deal of tension in the call center, explaining
that there was not the same level of communication
going on as there was before the incident, reflecting
a disconnect among the employees. As a result, they
recommended diversity training for employees and
Donegan agreed, telling them that she also had been
considering it. In addition, because “so many people
were offended and hurt,” Franklin advocated for having
a counselor come in during roll call to speak with
employees about diversity, the background of the racial
slur Bennett had used, and why people might be
bothered or concerned about its use. The counselor came
in to address the ECC workforce and stayed to talk to
employees one-on-one, an offer some employees took
advantage of until they had to go back to work because
there was insufficient coverage of incoming calls.
Sanschargrin determined that Bennett’s conduct
violated three policies of the Metropolitan Government
Civil Service Commission: (1) her behavior “reflect[ed]

App.8a
discredit upon [her]self, the department, and/or the
Metropolitan Government,” (2) her conduct was “unbecoming of an employee of the Metropolitan Government,” and (3) her Facebook profile disclosed that she
was a Metro employee but failed to include a disclaimer
that her “expressed views are [hers] alone and do not
reflect the views of the Metropolitan Government.” At
Donegan’s direction, Sanschargrin drafted a charge
letter for Bennett that included a summary of the
incident, described the three rules she was accused of
violating, and outlined her due process rights. The
letter explained that “[t]o advance the mission [of ECC],
it is vitally important that all department employees
conduct themselves in a manner free of bias, demonstrate unquestionable integrity, reliability and honesty,”
and that “[t]he success of [the] agency can be measured
by the perception and confidence the public has in the
employees representing the agency.”
Donegan felt the charges were appropriate, first,
because she felt that inclusion of a particularly offensive racial slur in a public social-media post was
objectionable because it did not reflect Metro policy or
the beliefs of people who worked there. Further, she
thought such racially charged language would bring
discredit to the office and testified that “the public
that we serve is very diverse, and it’s my expectation
that when someone calls[,] regardless of who they are
or where they’re from, that they’re going to receive the
appropriate service.” Donegan also concluded that
Bennett’s behavior warranted discipline because of the
disruption it caused: employees were upset at work,
counselors needed to be involved, and stress levels
increased for the agency as a whole.

App.9a
The charge letter was approved by Donegan and
sent to Bennett on December 28, 2016, upon her return
from Family Medical Leave. Bennett was again placed
on administrative leave pending a hearing set in
January. The purpose of the hearing was to allow
Bennett to state her case, present evidence or witnesses,
and “expand on [her] side of what happened” after
having time to process the initial conversation and
regroup. At the hearing, Bennett appeared with an
attorney, was read the charge letter, and pleaded not
guilty to all three charges. Bennett spoke on her own
behalf, primarily discussing incidents other than the
Facebook post, and defended her decision to use the
language in question. In Donegan’s view, Bennett failed
to show any remorse or accountability. Although Bennett wrote an apology letter while on leave saying that
she had been embarrassed and humbled by the experience, she did not mention any of those sentiments at
the hearing. Because Bennett did not acknowledge
that there was anything wrong with the post, Donegan
feared that similar incidents would continue to happen
and felt that the necessary healing among the ECC
workers could not succeed with Bennett there. She
decided to terminate Bennett’s employment.
In March 2017, Bennett filed a lawsuit against
Metro under 42 U.S.C. § 1983 alleging violations of
her First and Fourteenth Amendment rights and a
claim under the Tennessee Constitution. Both Bennett
and Metro filed motions for summary judgment. The
district court denied the plaintiff’s motion for summary
judgment and dismissed the state constitutional claim
and the Fourteenth Amendment claims, leaving only
the First Amendment claim for trial.

App.10a
When the case went to the jury, the district court
included in the instructions a set of interrogatories
related to the balancing test outlined in Pickering v.
Board of Education, 391 U.S. 563 (1968), and the issue
of causation. The jury concluded that Bennett’s Facebook
comment was not reasonably likely to impair discipline
by superiors at ECC, to interfere with the orderly
operation of ECC, or to impede performance of Bennett’s
duties at ECC. However, the jury did conclude that the
Facebook post was reasonably likely to have a detrimental impact on close working relationships at ECC
and undermine the agency’s mission, that Metro
terminated Plaintiff “[f]or using the term ‘niggaz’
when expressing her views regarding the outcome of
a national election on Facebook,” and that doing so
violated the three charges outlined in Bennett’s termination letter. Based on these findings, the district
court ruled from the bench that the Pickering balance
weighed in Bennett’s favor. Following a second phase
of jury deliberations, Bennett was awarded $6,500 in
back pay and $18,750 for humiliation and embarrassment. This appeal followed.
DISCUSSION
The application of the Pickering balancing test is
a matter of law for the court to decide and, thus, we
review it de novo. Gillis v. Miller, 845 F.3d 677, 684
(6th Cir. 2017).
To establish a claim for First Amendment retaliation, a public employee must show that:
(1) he engaged in constitutionally protected
speech or conduct; (2) an adverse action was
taken against him that would deter a person
of ordinary firmness from continuing to engage

App.11a
in that conduct; [and] (3) there is a causal
connection between elements one and two—
that is, the adverse action was motivated at
least in part by his protected conduct.

Gillis, 845 F.3d at 683 (alteration in original) (citations
omitted). Here, only the first element of this framework
is in question.
To determine whether the discharge of a public
employee violates the First Amendment, we apply the
two-step analysis laid out in Connick v. Myers. Dambrot
v. Cent. Michigan Univ., 55 F.3d 1177, 1186 (6th Cir.
1995) (citing Connick v. Myers, 461 U.S. 138, 140
(1983)). First, we must determine whether the statement in question constitutes speech on a matter of
public concern. 1 Id. Then, if it does, we apply the
Pickering balancing test to determine whether the
Plaintiff’s “interest in commenting upon matters of
public concern . . . outweigh[s] the interest of [Metro],
as an employer, in promoting the efficiency of the
public services it performs through its employees.”
Leary v. Daeschner, 228 F.3d 729, 737 (6th Cir. 2000)
(quoting Pickering, 391 U.S. at 568). These two steps
are sub-elements of the first element of the First
Amendment retaliation framework.
Because neither party appears to argue that the
speech is not of public concern, we direct our analysis
to the second part of the Connick test—the Pickering
analysis.
1 The first part of the test also includes whether the employee spoke
as a private citizen or public employee in the course of employment. Garcetti v. Ceballos, 547 U.S. 410, 418 (2006). This prong
is not at issue in this case, as neither party argues that Bennett’s
post was made in the course of employment.

App.12a
Before applying the balancing test, it is appropriate
to begin this analysis by determining the degree of
protection the speech warrants, i.e. , the level of
importance the speech has in the community. Because
“the state’s burden in justifying a particular discharge
varies depending upon the nature of the employee’s
expression,” Connick, 461 U.S. at 150, we first consider
the context of the speech for which Metro fired Bennett.
On appeal, Metro does not challenge the district court’s
finding that the statement in question was political in
nature. But Metro does argue that it “was not purely
political” and, thus, was not entitled to the heightened
level of protection the district court had granted to it.
Bennett, on the other hand, argues that Metro’s decision
to terminate her “was based on the entirety of her postelection, political comment as a whole.”2
Bennett bases her argument that she was fired
for political speech on the jury’s interrogatory response
indicating that Metro terminated her “for using the
term ‘niggaz’ when expressing her views regarding the
outcome of a national election on Facebook.” Though
2 The crux of Bennett’s argument that her speech was protected
was that it was attached to a statement celebrating the outcome
of the Presidential election, with a strong inference that her
termination, at least in part, had to do with her support of Trump.
The record does not support such a conclusion. Testimony and
the facts of the case indicate that Bennett was fired specifically
for her use of a racial slur, for her lack of regret for doing so, and
for the disruption it caused—not for the political nature of her
original post. For one, Bennett acknowledged that she had made
previous political posts on Facebook that did not use racial slurs
and that she had never been disciplined for any of those posts.
Also, both Donegan and Sanschargrin testified that it was
specifically the words Bennett used that led them to determine
that she had violated civil service rules, and the situation in
which she used them—political or not—was irrelevant.

App.13a
the district court similarly relied on the jury’s response,
its reliance is somewhat misleading. The interrogatory
form was presented in a multiple-choice format, and
the selected answer was the only answer choice that
included the actual slur. The alternative responses
included: “For expressing her views regarding the
outcome of a national election on Facebook;” “For lack
of accountability;” and “For the workplace disruption
her Facebook comment caused.”3 Presented with its
options, it seems logical to infer that the jury believed
the speech at issue was the term “niggaz” and not
statements expressing Bennett’s views on the election,
as selecting option one would have indicated. So, even
though Bennett’s speech was protected, it was not in
the “highest rung” of protected speech as the district
court erroneously found.
This conclusion is bolstered by the First Amendment’s focus on “not only . . . a speaker’s interest in
speaking, but also with the public’s interest in receiving
information.” Banks v. Wolfe Cty. Bd. of Educ., 330 F.3d
888, 896 (6th Cir. 2003) (quoting Chappel v. Montgomery
Cnty. Fire Prot. Dist. No. 1, 131 F.3d 564, 574 (6th Cir.
1997)) (finding that a teacher’s airing of issues in a
school district were of public interest because “[t]he
community has an interest in knowing when the district
does not follow state law or its own hiring practices”
and such practices “could affect the community”). The
Supreme Court described the “employee-speech jurisprudence” as “acknowledg[ing] the importance of
promoting the public’s interest in receiving the wellinformed views of government employees engaging in
3 The form also included “other,” which was placed not as an
option, but rather as a space to add additional information.

App.14a
civic discussion.” Garcetti v. Ceballos, 547 U.S. 410,
419 (2006) (emphasis added). Central to the concept of
protecting the speech of government employees is the
idea that public employees are the most likely to be
informed of the operations of public employers and
that the operation of such entities is “of substantial
concern to the public.” See v. City of Elyria, 502 F.3d
484, 492 (6th Cir. 2007) (quoting City of San Diego v.
Roe, 543 U.S. 77, 82 (2004); see also Garcetti, 547
U.S. at 419. “Public interest is near its zenith when
ensuring that public organizations are being operated
in accordance with the law.” 4 Marohnic v. Walker ,
800 F.2d 613, 616 (6th Cir. 1986) (per curiam). Here,
even if we consider Bennett’s speech to include her
comment on the election, we must consider the public’s
interest—or lack thereof—in receiving the information
she shared. Compare Bennett’s comment on the election—of which she had no special insight—to the litany
of cases protecting speakers that are exposing inner
workings of government organizations to the public.
See, e.g. Banks, 330 F. 3d at 897 (finding that a board
of education engaging in illegal hiring practices is a
“concern to the community”); City of Elyria, 502 F.3d
at 492 (holding that operations of public employers
“are of substantial concern to the public,” and thus, a

4 Examples of speech that would involve such matters of public
concern include “statements ‘inform[ing] the public that [a
governmental entity] was not discharging its governmental
responsibilities’ or statements ‘seek[ing] to bring to light actual
or potential wrongdoing or breach of public trust on the part of’
government employees,” as well as speech protesting racial or sexual
harassment or discrimination within a public organization. Hughes
v. Region VII Area Agency on Aging, 542 F.3d 169, 182 (6th Cir.
2008) (citations omitted).

App.15a
public employee’s right to comment on such matters
are protected).
It is true that the speech in question was couched
in terms of political debate, made in response to and
repeating back the words of another person, and used
a more casual version of an offensive slur.5 Still,
Bennett’s speech does not garner the high level of
protection that the district court assigned to it, and
the balancing test requires less of a showing of
disruption and other factors than the district court
would require. See Connick, 461 U.S. at 152 (explaining
that the greater extent to which the speech involves
public concern, the stronger the showing of disruption
necessary). In any event, the evidence of disruption
caused by the language in Bennett’s Facebook post
was substantial.
We apply the Pickering test “‘to determine
[whether] the employee’s free speech interests outweigh
the efficiency interests of the government as employer.’”
Gillis, 845 F.3d at 684 (quoting Scarbrough v. Morgan
Cnty. Bd. of Educ., 470 F.3d 250, 255 (6th Cir. 2006)).
The test considers “the manner, time, and place of the
employee’s expression.” Rankin v. McPherson, 483 U.S.
378, 388 (1987). The “pertinent considerations” for the
balancing test are “whether the statement [(a)] impairs
5 Employees acknowledged that the form of the slur used by
Bennett, ending as it did with “-az,” is generally less offensive, but
they also said that it depends on the context in which it was used.
Employees also testified that African Americans have a “history
of trauma with the word” and that their own use of it, in any form,
is “trying to recapture that word to use it amongst [them]selves,
to change the meaning, and use it as a term of camaraderie.”
They added that such use by people outside of the community
would not have the same meaning.

App.16a
discipline by superiors or harmony among co-workers,
[(b)] has a detrimental impact on close working relationships for which personal loyalty and confidence are
necessary, [(c)] impedes the performance of the speaker’s
duties or interferes with the regular operation of the
enterprise,” id., or (d) undermines the mission of the
employer. Rodgers v. Banks, 344 F.3d 587, 602 (6th Cir.
2003) (citing Williams v. Kentucky, 24 F.3d 1526,
1536 (6th Cir. 1994)). The consideration of the employee’s performance, impaired discipline by superiors,
harmony among co-workers, and undermining of the
office’s mission is “focuse[d] on the effective functioning
of the public employer’s enterprise.” Rankin, 483 U.S.
at 388 (avoiding interference with the functioning of
the government office “can be a strong state interest”).
Consideration of the first factor of the Pickering
test, whether the speech impaired discipline by superiors
or harmony among co-workers, weighs heavily in favor
of Metro. The record makes clear that the harmony of
the office was disrupted, and the district court erred in
discounting the importance of harmonious relationships
at ECC. Employees testified that Bennett’s post prompted a “nonstop conversation” in the office that lasted for
days, and for as much as three weeks to a month after
Bennett’s comment, there was a need for a counselor
to address the office. Donegan testified:
I was concerned, after learning about the need
for [counselors] and for additional diversity
training, to hear how we needed to heal as an
agency. And it made me realize that for them
to work side by side and to have to work as a
team, I wasn’t confident. I wasn’t confident
that that could continue with Bennett there.
And to be honest, I wasn’t confident that Ms.

App.17a
Bennett would not . . . say that again. . . .
[S]he had broke my confidence at that time.
At Bennett’s disciplinary hearing and during trial, she
did not exhibit concern for her colleagues’ feelings,
called them hypocrites, and indicated that she would
not apologize because someone else took something
the wrong way—indeed, she believed her colleagues
should instead apologize to her. Such facts indicate
that if she had returned to work at ECC, her presence
would have continued or exacerbated the disharmony.
In Bennett’s favor, there is no indication that the
speech itself impaired discipline by superiors. However,
it is possible that any inaction on Donegan’s part in the
face of Bennett’s derogatory speech could have been
seen as an endorsement of the speech and impaired
future discipline of similar derogatory statements.
The second factor, whether the speech had “a detrimental impact on close working relationships for which
personal loyalty and confidence are necessary,” also
weighs heavily in favor of Metro. Rankin, 483 U.S. at
388. The district court acknowledged the importance
of the close working relationships among the Emergency
Telecommunicators at ECC, despite its failure to sufficiently credit the importance of those relationships. The
jury also confirmed such a finding by indicating that
Bennett’s “Facebook comment was reasonably likely to
have a detrimental impact on close working relationships” at ECC. (Emphasis added.) Donegan, Sanschargrin, and other supervisors and employees testified to
the invaluable role that team dynamics play in the
success of the agency. Sanschargrin highlighted the
necessity of call takers and dispatchers being able to
work together harmoniously, testifying that without

App.18a
that collaboration and communication, the public would
be at risk.
Several ECC employees had concerns about being
able to work effectively with Bennett after her use of the
racial slur in her post. Because the job of an Emergency
Telecommunicator is so stressful, the employees operate
somewhat as a team and need to depend on one another.
They said that when Bennett used such a hurtful
word, it made them question whether they could rely
on her in their work and, as African Americans,
whether Bennett would fairly assist their families
when they called for help. Some also began to wonder
whether Bennett had the requisite judgment to do her
job effectively, one saying that “you need to be able to
trust [that] the person beside you is making good decisions.”
The district court minimized this substantiation
by focusing on the lack of evidence “of any detrimental
impact on any working relationships at the ECC other
than Plaintiff’s working relationships with whoever
might be upset with her, or lose respect for or confidence
in her, based upon her Facebook comment.” The district
court reasoned that the employees, “if anything, were
brought closer together” by the emotions and ameliorative response from ECC leadership. But what the court
failed to recognize is that the removal of Bennett from
the agency was part of ECC’s “ameliorative response.”
Indeed, the increased solidarity among the employees
demonstrates how critical Bennett’s termination was
to fostering the close working relationships in the
agency.
The third factor, whether Bennett’s speech
“impede[d] the performance of the speaker’s duties or
interfere[d] with the regular operation of the enterprise,”

App.19a
is a close call. Rankin, 483 U.S. at 388. There is little
indication, as supported by the jury’s verdict, that
Bennett’s speech would impact the way Bennett did her
job. But it is also possible that a damaged relationship
with her colleagues could affect the quality and quantity
of her work. Nevertheless, the jury found that her
speech was not likely to interfere with the regular
operation of ECC.
Finally, Bennett’s comment detracted from the
mission of ECC, weighing again in favor of Metro.
“When someone who is paid a salary so that she will
contribute to an agency’s effective operation begins to
do or say things that detract from the agency’s
effective operation, the government employer must
have some power to restrain her.” Waters v. Churchill,
511 U.S. 661, 675 (1994). The agency’s mission is to
provide “the vital link between the citizens and first
responders for all emergency and non-emergency calls,
and to do so in an efficient, court[eous], and polite
manner.” As Metro stated in its letter to Bennett: “To
advance that mission, it is vitally important that all
department employees conduct themselves in a manner
free of bias, demonstrate unquestionable integrity,
reliability, and honesty. The success of [the] agency
can be measured by the perception and confidence the
public has in the employees representing the agency.”
Donegan, in making her decision to terminate
Bennett, considered the importance of public perception
to achieving ECC’s mission.
The fact that we had had people contact the
mayor’s office, that was concerning to me. Her
Facebook post apparently, at that time, was
open to the public. We can’t run an agency
that provides a service to the citizens and

App.20a
people think that our workplace is not free of
bias. So that was concerning to me as well.
Had Bennett’s profile been private, or had it not indicated that she worked for Metro, Metro’s argument for
terminating Bennett would not be as strong. But the
relevant Civil Service Rules support the idea that public
perception is central to ECC’s mission. Bennett’s public
comments discredited ECC because they displayed
racial bias without a disclaimer that the views were hers
alone. This court and several others “have recognized
the interest of a governmental entity in preserving the
appearance of impartiality.” Thomas v. Whalen, 51
F.3d 1285, 1292 (6th Cir. 1995) (listing courts that
have held as such).
The district court acknowledged that the jury found
Bennett’s comment to undermine the mission of ECC
but decided that the weight of such a determination
was “relatively slight.” We disagree and conclude that
more weight should be given to this consideration.
First, the district court found the concerns were
“attenuated,” but the concerns about Bennett’s interference in the mission of ECC were not as attenuated as
the district court described. In weighing Metro’s interest
in fulfilling the mission of the office, we consider the
role and responsibilities of the employee and, when the
role is public-facing, whether the danger to successful
functioning of the office may increase. Rankin, 483 U.S.
at 390. In Rankin, the employee was not in a public
contact role, and thus, concerns about public perception
were too attenuated to limit the free speech rights of
the employee. Id. at 391. Here, however, Bennett was
in a public-facing role and used the slur in a public
forum from a profile that implicated not only Metro
Government but also the Metro Police Department.

App.21a
This situation is exactly the type that Rankin warned
could warrant a higher level of caution for public
employees’ choice of words. Id. at 390 (stating that if
the employee is in a “confidential, policymaking, or
public contact role,” the danger to the agency’s successful
functioning may be greater).
Second, the district court determined that because
the record contained evidence of only one member
of the public expressing concern, the fear of the post
“going viral” was not a sufficiently substantial justification. But, although we have not addressed the issue
directly, other circuits have held that a reasonable
prediction that the public perception will impact the
government’s operations is sufficient. See Locurto v.
Giuliani, 447 F.3d 159, 179-181 (2d Cir. 2006) (“Where
a Government employee’s job quintessentially involves
public contact, the Government may take into account
the public’s perception of that employee’s expressive
acts in determining whether those acts are disruptive
to the Government’s operations. . . . [The Government]
may legitimately respond to a reasonable prediction of
disruption.”); Grutzmacher v. Howard Cnty., 851 F.3d
332, 346 (4th Cir. 2017) (finding that part of the job
of public servants “is to safeguard the public’s opinion
of them” and that even the threat of deteriorated
“community trust” grants greater discretion to the
employer). Grutzmacher acknowledges that speech on
social media “amplifies the distribution of the speaker’s
message.” 851 F.3d at 345. Although this situation, in
some respects, “favors the employee’s free speech
interests,” it also “increases the potential, in some
cases exponentially, for departmental disruption,
thereby favoring the employer’s interest in efficiency.”

Id.

App.22a
Third, the district court “view[ed] it as highly
speculative that even if an African American were
familiar with Plaintiff’s Facebook comment and was
offended by it, such African American would be deterred
from calling in an emergency.” The concern, however,
was not that African Americans will no longer call for
emergency service, but rather—as Metro explains—
that “damaged public perception can lead to many ills”
for an agency that serves the public directly. The
Second Circuit has effectively captured the importance
of public trust in such relationships:
The effectiveness of a city’s police department
depends importantly on the respect and trust
of the community and on the perception in
the community that it enforces the law fairly,
even-handedly, and without bias. If the
police department treats a segment of the
population . . . with contempt, so that the
particular minority comes to regard the
police as oppressor rather than protector,
respect for law enforcement is eroded and
the ability of the police to do its work in that
community is impaired. Members of the
minority will be less likely to report crimes,
to offer testimony as witnesses, and to rely
on the police for their protection. When the
police make arrests in that community, its
members are likely to assume that the arrests
are a product of bias, rather than well-founded,
protective law enforcement. And the department’s ability to recruit and train personnel
from that community will be damaged.

Locurto, 447 F.3d at 178 (emphasis added) (citing Pappas
v. Giuliani, 290 F.3d 143, 146-47 (2d Cir. 2002)). The

App.23a
Ninth Circuit similarly reasoned that the government’s
interest in effectively maintaining their operations
allows them to “rely on ‘reasonable predictions of
disruption’” if an employee’s speech, “when known to
the public,” would harm the employer’s mission.6
Dible v. City of Chandler, 515 F.3d 918, 928 (9th Cir.
2008).
The district court’s reference to Bennett’s use of
“niggaz” as “the mere use of a single word” demonstrates
its failure to acknowledge the centuries of history that
make the use of the term more than just “a single
word.” The use of the term “evok[es] a history of racial
violence, brutality, and subordination.” McGinest v.
GTE Serv. Corp., 360 F.3d 1103, 1116 (9th Cir. 2004).
It “may appear innocent or only mildly offensive to one
who is not a member of the targeted group, but be
intolerably abusive or threatening when understood
from the perspective of a [person] who is a member of
the targeted group.” Id. “The use of this word, even in
jest, could be evidence of racial apathy.”7 Hull v.
6 In writing as amicus curiae, the International Municipal Lawyers
Association emphasized this point: “When the public distrusts
officials and employees within a public safety organization,
cooperation with the police plummets, community watch programs
crumble, witnesses to crimes no longer come forward, and criminals
enjoy the passive support of local residents.” Brief for Int’l Munic.
Lawyers Ass’n as Amicus Curiae Supporting Appellants at 12.
7 Several other courts have acknowledged the weight of the word:
“The word ‘nigger’ [is] ‘perhaps the most offensive and inflammatory racial slur in English, . . . a word expressive of racial
hatred and bigotry[.]’” Swinton v. Potomac Corp., 270 F.3d 794,
817 (9th Cir. 2001) (citing Merriam-Webster’s Collegiate Dictionary
784 (10th ed.1993)) (finding that even though the word may have
been used in a joking manner, because the African-American
employee did not take it that way, the court understood it to be
“undesirable and offensive”); Morgan v. Commc’n Workers of

App.24a

Cuyahoga Valley Joint Vocational Sch. Dist. Bd. of
Educ., 926 F.2d 505, 514 (6th Cir. 1991) (citing
McKnight v. General Motors Corp., 908 F.2d 104, 114
(7th Cir. 1990)). Surely the use of such an impactful and
hurtful word can lead to the ills outlined in Locurto.
Further, the level of teamwork required for the
effective functioning of an emergency-dispatch agency
makes it more analogous to a police department than
the district court determined. Although there are differences between emergency communications agencies
and a police department, the distinction between the
two may not be clear to the public, whose first point of
contact in an emergency warranting police action is
often with the employees fielding the emergency call.
The diverse constituents of Metro Government need
to believe that those meant to help them in their most
dire moments are fair-minded, unbiased, and worthy
of their trust.
Bennett raises the argument that ECC’s anticipatory action—without further complaints from the
public or employees—amounts to a “heckler’s veto.” A
heckler’s veto involves burdening or punishing speech
“simply because it might offend a hostile mob.”
Forsyth County v. Nationalist Movement, 505 U.S.
123, 134-35 (1992). We have not addressed a heckler’s
veto in this context, but the Ninth Circuit has held
that those concerns are not applicable to the “wholly
separate area of employee activities that affect the
public’s view of a governmental agency in a negative
Am., AFL-CIO, Dist. 1, No. 3:08-cv-249-FLW, 2009 WL 749546,
at *7 n.3 (D.N.J. Mar. 17, 2009) (“The word “nigger” persists as
an ugly vestige of racial intolerance, bigotry, and brutality; its
use in any setting is inappropriate and indefensible [ ] [a]gainst
the backdrop of this country’s mixed history of race relations.”)

App.25a
fashion, and thereby, affect the agency’s mission.” Dible,
515 F.3d at 928-29. The Second Circuit has taken a
similar view, finding that “members of the AfricanAmerican . . . communities whose reaction . . . the
defendants legitimately took into account . . . cannot
properly be characterized as ‘outsiders seeking to
heckle [the plaintiffs] into silence.’” Locurto, 447 F.3d
at 182-83 (citation omitted). Because effective emergency service “presupposes respect for the members of
those communities,” such agencies are permitted to
account for the possible reaction of the public when
disciplining their employees. Id. The public—as the
consumers of ECC’s services—and Bennett’s colleagues
with whom she must work collaboratively can hardly
be said to be “a hostile mob.”
Last, Sanschargrin’s failure to investigate further
is not fatal to Metro’s argument. “Management can
spend only so much of their time on any one employment
decision.” Waters, 511 U.S. at 680 (holding that basing
a termination decision on “the word of two trusted
employees, the endorsement of those employees’ reliability,” and “a face-to-face meeting with the employee
he fired” was reasonable and “no further time needed
to be taken”). Additionally, employers may rely on
conduct and evidence that “the judicial process ignores.”
Id. at 676 (finding that government managers are able
to give standing to complaints that they know from
experience to be credible, which may be “the most effective way for the employer to avoid future recurrences
of improper and disruptive conduct.”).
Sanschargrin saw the Facebook post before Bennett
deleted it and considered the complaints made to his
human resources staff, assistant director Milliken, a
trainer of front-line employees, the chief union steward,

App.26a
and the mayor’s office. He also discovered that Bennett
violated three Civil Service Rules. Bennett, at her
disciplinary meeting, had the opportunity—with
counsel—to present additional information or evidence
that countered what was in the charge letter, which
would have been considered in Donegan’s disciplinary
decision. Bennett presented no evidence that any of
the complaints were invalid or that she did not violate
the Civil Service Rules. There is no precedent requiring
further disruption to an office environment once the
government confirms violations of policy and ascertained
disruption. “[I]f the belief an employer forms supporting
its adverse personnel action is ‘reasonable,’ an employer
has no need to investigate further.” Id. at 680.
It is true that these practices involve some
risk of erroneously punishing protected speech.
The government may certainly choose to
adopt other practices, by law or by contract.
But we do not believe that the First Amendment requires it to do so. Government
employers should be allowed to use personnel
procedures that differ from the evidentiary
rules used by courts, without fear that these
differences will lead to liability.

Id. at 676-77.
The question in this case is not whether members
of the judiciary would have made the decision to
terminate Bennett for using a racial slur in this
instance.8 The question is whether Bennett’s language

8 Bennett argues at length, and the district court elaborates in a
footnote, that the context of her speech is relevant because she
might not have had grounds for discipline if she had use the word

App.27a
was sufficiently protected for the court to interfere in
our proclivity for “affording government employers
sufficient discretion to manage their operations.”
Garcetti, 547 U.S. at 422.
Of course, there will often be situations in
which reasonable employers would disagree
about who is to be believed, or how much
investigation needs to be done, or how much
evidence is needed to come to a particular
conclusion. In those situations, many different
courses of action will necessarily be reasonable.
Only procedures outside the range of what a
reasonable manager would use may be
condemned as unreasonable.

Waters, 511 U.S. at 678. Donegan’s response cannot
be considered unreasonable in light of the record, the
jury responses, and Sixth Circuit precedent. The Civil
Service Rules that Bennett violated cover all Metro
employees, not just those at ECC, and are left largely
undefined to give “department heads the latitude and
the discretion to . . . apply them appropriately.” In this
case, the Civil Service Commission had the opportunity
to determine whether Donegan applied them inappropriately and chose not to reverse her decision.
Because Bennett’s speech does not occupy “the
highest rung” of public concern, less of a showing of
disruption is required. Several factors weigh heavily
in favor of Metro. Although there are factors weighing
in favor of Bennett, sufficient disruption was shown to
tip the Pickering balance towards Metro. Based on the
above analysis and in light of the discretion we must
to quote Dr. Martin Luther King or Barack Obama, or used it to
“denounce[ ] the bigoted use of the N-word.”

App.28a
grant leadership at Metro, its interest in maintaining
an effective workplace with employee harmony that
serves the public efficiently outweighs Bennett’s interest
in incidentally using racially offensive language9 in a
Facebook comment.
CONCLUSION
The result we reach today should not be taken as
reflecting a lack of deep appreciation for First Amendment values. As this court stressed in an earlier case
involving a public employee’s speech:
We wish to emphasize that in seeking to strike
the appropriate balance here today, we have
carefully considered the parties’ respective
9 As one author put it:
The slur is a “speech act”—an act with meaning and
consequences. In fact, when a white person uses the
term “nigger,” regardless of his conscious intentions,
he is making a fundamental statement about his
place in the world and, by extension, the place of
African Americans. The history embedded in the term
(its exclusive use in the nineteenth century as an
assertion of power by whites over their black slaves)
combined with the race of the white speaker and black
listener is akin to the speaker saying explicitly: “I reject
the concept of equality, I reject your humanity, I am
more powerful than you, and because of that power, I
can say anything I want, and you have no recourse.”
And the act has that consequence. It typically renders
the targeted listeners speechless and often demoralized,
and creates in them a feeling of helplessness that is
met with anger, fear, or sadness.
Leora F. Eisenstadt, The N-Word at Work: Contextualizing Language in the Workplace, 33 Berkeley J. Emp. & Lab. L. 299, 319-20
(2012).

App.29a
interests and have not taken our task lightly.
Just as we “hope that whenever we decide to
tolerate intolerant speech, the speaker as
well as the audience will understand that we
do so to express our deep commitment to the
value of tolerance—a value protected by
every clause in the single sentence called the
First Amendment.” [W]e also hope that whenever we decide that intolerant speech should
be restricted, it is understood that we do so
with no less commitment to the value of
tolerance and the First Amendment in which
it is enshrined.

Bonnell v. Lorenzo, 241 F.3d 800, 826-27 (6th Cir. 2001)
(quoting Edward J. Cleary, Beyond the Burning Cross
198 (1995), from a speech given by Justice Stevens at
Yale Law School in October 1992).
The judgment of the district court is REVERSED,
and the case is REMANDED for further proceedings
consistent with this opinion.

App.30a
CONCURRING OPINION OF JUSTICE GIBBONS
GIBBONS, Circuit Judge, concurring.
I join Judge Daughtrey’s opinion and write separately only to highlight my specific disagreements with
the district court’s Pickering analysis.
The district court’s principal error in its Pickering
analysis was that it assigned insufficient weight to the
disruption caused by Bennett’s highly offensive and
inflammatory language, given the evidence in the case
and the jury’s findings. The jury indicated that Bennett’s
comment was reasonably likely to have a detrimental
impact on close working relationships at the ECC and
to undermine the mission of the ECC. While the district
court found these to not be “especially strong points”
in Metro’s favor, DE 147, Order, PageID 1716, it did
so by understating the extent to which Bennett’s
comment jeopardized “the effective functioning of the
[ECC],” Rankin v. McPherson, 483 U.S. 378, 388 (1987).
First, the district court unreasonably discounted
the importance of harmonious working relations at
the ECC by comparing the ECC to police and fire
departments. See DE 147, Order, PageID 1718-19
(noting that “the ECC is not precisely akin to a police
or fire department and does not have quite the same
enormous need for . . . harmonious relations”). True,
police and fire departments depend on harmonious
relationships in navigating possible life-or-death
situations. But the mere fact that another entity might
have a greater need for harmonious relations does not
mean that such relationships are not quite important
to the ECC. Testimony at trial demonstrated the essential role of team dynamics and collaboration at the

App.31a
ECC, and this finding was confirmed by the jury. And the
district court provided no authority or reasoned basis
for diminishing the value of close working relations in
one context simply because there might be a greater
need for those relations in another context.
The district court further minimized Bennett’s
disruption to the ECC by noting, without support,
that “disharmony counts far less in the defendant’s
favor when it takes the form . . . of seemingly everyone
else with an opinion deeming the plaintiff’s conduct
beyond the pale and treating her as something of a
pariah.” DE 147, Order, PageID 1717. The district
court viewed Bennett’s comment as creating solidarity
among her co-workers—in opposition to Bennett—and
therefore concluded that the risk of an office schism
was low. See id. (observing that ECC employees were,
“if anything, brought closer together by the emotions,
and ameliorative response from ECC leadership, provoked by Plaintiff’s Facebook comment”). If ECC
employees’ solidarity against Bennett shows anything,
it demonstrates that the termination of Bennett was
essential to preserving close working relations at the
ECC.
Beyond causing disruption within the ECC,
Bennett’s use of an offensive racial slur on a public
platform was highly likely to impair the public’s perception of the ECC as an unbiased entity. A government
entity has a significant interest in preserving the
legitimacy and credibility of its law enforcement institutions, and, specifically here, the ECC has a stated
mission of helping all citizens, regardless of race. If
the ECC fails to discipline an employee who publicly
uses racist language, without remorse, it would put
the legitimacy and credibility of the ECC—a functional

App.32a
arm of Metro’s police and fire services—at risk. And I
do not believe this risk to be “attenuated” or “remote,”
as the district court concluded. DE 147, Order, PageID
1723. This direct risk is not only intuitively obvious,
but it was also supported by evidence at trial where a
member of the public expressed concern over the
possibility that the ECC would not provide equal, raceneutral services.
Finally, Bennett’s failure to apologize, show remorse, or otherwise recognize the harmful implications
of her use of the n-word suggests that any disruptions
to the ECC—both in its working relations and in its
mission to the public—would have not only continued
but would have been exacerbated by Bennett’s presence
at the ECC. Faced with evidence of actual disruption
caused by Bennett’s speech, along with the reasonable
expectation that such disruption would continue to
harm the ECC, Metro appropriately concluded that
Bennett’s continued employment would have impaired
the “effective functioning of the [ECC].” Rankin, 483
U.S. at 388.
For these reasons, I believe the Pickering factors
weigh more heavily in Metro’s favor and accordingly
agree that the district court’s judgment should be
reversed.

App.33a
CONCURRING OPINION OF JUSTICE MURPHY
MURPHY, Circuit Judge, concurring in the judgment.
Under the Supreme Court’s current framework, I
agree that the Metropolitan Government of Nashville
did not violate the First Amendment when it fired
Danyelle Bennett for using a highly offensive racial
slur on her Facebook page while commenting on the
2016 presidential election. Yet I have found this case
difficult because the Court’s framework requires us to
“balance” what strike me as two incomparable values—
a public employee’s interest in speaking about politics
and a public employer’s interest in its efficient operations. I write to explain my reasoning.
The First Amendment provides: “Congress shall
make no law . . . abridging the freedom of speech.” U.S.
Const. amend. I. It was once thought that the government did not “abridge” the “freedom of speech” (i.e.,
“contract” the freedom or “deprive” a citizen of it)
when the government made employment decisions
based on its employees’ expression. Noah Webster, A
Compendious Dictionary of the English Language 2
(1806). In the words of Justice Holmes, a policeman
“may have a constitutional right to talk politics, but
he has no constitutional right to be a policeman.”
McAuliffe v. City of New Bedford, 29 N.E. 517, 517
(Mass. 1892). And governments had long made hiring
and firing decisions based on their employees’ political
activities when the Fourteenth Amendment was adopted
and the First Amendment incorporated against the
states. See Elrod v. Burns, 427 U.S. 347, 377-79 (1976)
(Powell, J., dissenting). This right was instead
traditionally thought to protect private citizens against
efforts to stifle their speech with, say, criminal fines.

App.34a
The Supreme Court eventually rejected the Holmesian view that the greater power (to deny a person a
job) includes the lesser power (to condition the job on
any and all speech restrictions) under its emerging
“unconstitutional conditions” doctrine. See Pickering
v. Bd. of Educ. of Twp. High Sch. Dist. 205, 391 U.S.
563, 568 (1968). Still, the Court recognized (more as a
pragmatic matter than a textual or historical one) that
the “government as employer” must have “far broader
powers” to regulate an employee’s speech when making
personnel decisions than “the government as sovereign”
has the power to regulate a citizen’s speech when meting
out punishments. Waters v. Churchill, 511 U.S. 661, 67174 (1994) (plurality opinion). So once the Court departed
from the traditional rule, it needed to develop an
alternative framework for restricting the government’s
ability to fire employees for their speech. See Randy J.
Kozel, Free Speech and Parity: A Theory of Public
Employee Rights, 53 Wm. & Mary L. Rev. 1985, 200507 (2012).
The Court has gradually done so. Today, a public
employer’s decision to discharge an employee for
speech violates the First Amendment if that speech
satisfies three conditions. To begin, the employee must
speak as a private citizen, not as part of the employee’s
official job duties. Garcetti v. Ceballos, 547 U.S. 410,
426 (2006). Next, the speech must touch on “matters
of public concern,” not personal concern. Connick v.
Myers, 461 U.S. 138, 143 (1983). Last, the employee’s
interest in speaking must outweigh the government’s
interest in operating—a balancing test known as
“Pickering balancing.” See Pickering, 391 U.S. at 568.
Here, Bennett’s speech was not part of her duties
as a 911 operator, so this case turns on the other two

App.35a
conditions. I believe that Bennett spoke on a matter of
public concern. And I see the “balancing” inquiry as a
difficult one. On Bennett’s side, she spoke on her
personal time about a topic at the First Amendment’s
core (a presidential election). On Nashville’s side,
Bennett used a version of what is perhaps the most
offensive word in the English language. The city could
reasonably find that her speech risked the public trust
in its Emergency Communications Center. Which
interest is “greater”? I must express my uncertainty
over how to engage in this putative “balancing.” But
in the end the deference that federal courts owe state
governments under the Supreme Court’s current
approach leads me to conclude that we should reverse
the district court’s holding that Bennett’s firing violated
the First Amendment.
I
I agree with the district court that this case involves
a matter of public concern because Bennett’s comment
addressed an election. To be sure, her use of a racial
slur (even if only to respond to a stranger’s comment)
was “patently offensive, hateful, and insulting.” Pappas
v. Giuliani, 290 F.3d 143, 154 (2d Cir. 2002) (Sotomayor,
J., dissenting). Yet the Supreme Court’s cases teach
that we cannot isolate the offensive word from the
broader context. See Rankin v. McPherson, 483 U.S.
378, 385 (1987); see also Marquardt v. Carlton, 971
F.3d 546, 550-51 (6th Cir. 2020).
To decide whether a statement addresses a matter
of public concern, we must consider the “content, form,
and context of [the] statement, as revealed by the
whole record.” Connick, 461 U.S. at 147-48. This “public
concern” element asks a question like the question

App.36a
central to a “common-law action for invasion of privacy”:
Does the employee’s statement address “a subject of
legitimate news interest”? City of San Diego v. Roe,
543 U.S. 77, 80 (2004) (per curiam).
Under this rubric, it should be obvious that political
elections are legitimately newsworthy. In fact, the
Supreme Court’s expansion of the First Amendment
into public employment started with political speech.
The expansion took root in the 1950s and 60s, when
governments were barring employees from participating
in “subversive” political groups. See Connick, 461 U.S.
at 144 (citation omitted). In one of the more famous
cases, the Court held that a state’s ban on public
employment for those belonging to the Communist
Party violated the First Amendment. See Keyishian v.
Bd. of Regents of Univ. of State of N.Y., 385 U.S. 589,
605-06 (1967). It reasoned: “[T]he theory that public
employment which may be denied altogether may be
subjected to any conditions, regardless of how
unreasonable, has been uniformly rejected.” Id. (citation
omitted). The First Amendment thus offers protections
to public employees if their speech fairly relates “to
any matter of political . . . concern[.]” Connick, 461 U.S.
at 146.
The facts of Rankin next show that this publicconcern test considers offensive remarks in their full
context. In March 1981, Ardith McPherson, a clerical
employee in a constable’s office, heard that President
Reagan had been shot. 483 U.S. at 381. After McPherson
criticized the President’s policies, she said, “shoot, if
they go for him again, I hope they get him.” Id. She
made this statement to a coworker while on the job,
and another employee overheard it. Id. at 381-82.
That employee reported her to the constable, who fired

App.37a
McPherson “because she hoped that the President would
be assassinated.” Id. at 390 n.16. The Court held that
her discharge violated the First Amendment. Id. at 392.
McPherson’s professed desire for a criminal assassination touched a matter of public concern because it
was “made in the course of a conversation addressing
the policies of the President’s administration.” Id. at
387. And “[t]he inappropriate or controversial character
of a statement is irrelevant to the question whether it
deals with a matter of public concern.” Id. at 387; cf.
Snyder v. Phelps, 562 U.S. 443, 454 (2011).
Neutral principles require us to apply the same
rules here. There, as here, an employee made an offensive remark. In Rankin, the Court found that the
statement touched a matter of public concern because
McPherson made it in the context of discussing the
President’s policies. 483 U.S. at 387. In this case, the
statement likewise touches a matter of public concern
because Bennett made it in the context of discussing
the President’s election. In both cases, the “inappropriate” nature of the employee’s statement is “irrelevant
to the question whether it deals with a matter of
public concern.” Id.; see also Connick, 461 U.S. at 149.
To be sure, this is not to suggest that employees may
use offensive language at their leisure while discussing
matters of public concern. See Waters, 511 U.S. at 672
(plurality opinion). A statement’s offensive nature may
well make it unprotected under Pickering balancing.
But a statement about a matter of public concern does
not become a statement about a personal matter merely
because the employee makes the statement in an
offensive manner. As to this public-concern question,
the offensive nature of the statement is “irrelevant.”
Rankin, 483 U.S. at 387.

App.38a
II
A
We must instead resolve this case using Pickering’s
“balancing test.” Roe, 543 U.S. at 82. This test instructs
courts to “arrive at a balance between the interests of
the [employee], as a citizen, in commenting upon
matters of public concern and the interest of the State,
as an employer, in promoting the efficiency of the
public services it performs through its employees.”
Pickering, 391 U.S. at 568. When assessing the employee’s interest, the Court has told us to consider “the
manner, time, and place of the employee’s expression[.]”
Rankin, 483 U.S. at 388. When assessing the government’s interest, the Court has told us to consider
whether the employee’s “statement impairs discipline
by superiors or harmony among co-workers,” “has a
detrimental impact on close working relationships for
which personal loyalty and confidence are necessary,”
“impedes the performance of the speaker’s duties,”
“interferes with the regular operation of the enterprise,”
or “undermines the mission of the public employer[.]”
Id. at 388, 390. When balancing these interests, the
Court has said that the employer’s operations-based
rationales for firing an employee must increase as the
employee’s speech interest increases. See Connick, 461
U.S. at 150, 152; cf. Lane v. Franks, 573 U.S. 228, 242
(2014).
“Because of the enormous variety of fact situations,”
however, the Court has refrained from offering more
specific guideposts about how to undertake this balancing. Pickering, 391 U.S. at 569. It has thus repeatedly
acknowledged that the “balancing is difficult.” Connick,
461 U.S. at 150; Garcetti, 547 U.S. at 418. As Justice

App.39a
O’Connor put it, balancing will never be easy “unless
one side of the scale is relatively insubstantial.” United
States v. Nat’l Treasury Emps. Union, 513 U.S. 454,
482 (1995) (O’Connor, J., concurring).
This case proves the point. The jury issued sharply
divided findings about the effects of Bennett’s speech
on the Emergency Communications Center. Three of
its answers favored Bennett: The jury found that her
speech would not impair discipline by supervisors,
impede her ability to perform her job, or interfere with
the Center’s operations. Two of its answers favored
Nashville: The jury found that Bennett’s speech would
affect working relationships and undermine the Center’s
mission. When assessing these findings in a thoughtful
opinion, the district court concluded that Bennett had
significant interests in her political comments, but
that the Center had only limited operational concerns
in her use of the offensive racial slur. When assessing
these findings in another thoughtful opinion, the
majority concludes that Bennett has limited interests
in her use of offensive language, but that the Center
has significant interests in ensuring harmonious
operations. In my view, both parties have significant
interests on their side.

Bennett’s Speech Interests . For two reasons,
Bennett’s speech should receive significant First Amendment weight. Reason One: The general content of the
speech. The Court’s cases distinguish speech about an
employee’s job from speech about broader policy. The
more the speech looks like a mere “grievance” about
working conditions, the more the government can use
that speech as the grounds for a discharge. Connick,
461 U.S. at 154. The more the speech discusses “issues
of public importance,” the less the government can do

App.40a
so. Pickering, 391 U.S. at 574. This factor supports
Bennett. Her social-media comment was not about
her job as a 911 operator; it was about a presidential
election. Despite her comment’s offensive nature, therefore, her speech falls near the First Amendment’s
core. See Eu v. S.F. Cnty. Democratic Cent. Comm.,
489 U.S. 214, 223 (1989). Even outrageous “speech on
public issues occupies the highest rung of the hierarchy
of First Amendment values, and is entitled to special
protection.” Snyder, 562 U.S. at 452 (quoting Connick,
461 U.S. at 145).
Reason Two: The “time” and “place” of Bennett’s
speech. Rankin, 483 U.S. at 388. The Court’s cases
distinguish “on-the-job” speech from speech during
the employee’s own time. If the employee speaks
pursuant to official job duties, the speech receives no
constitutional protection. Garcetti, 547 U.S. at 426.
And even if the speech is not part of an employee’s
duties, an employer has greater leeway to regulate
speech that occurs on the employer’s premises than
speech away from the office during the employee’s
own time. See Connick, 461 U.S. at 153. If, by contrast,
the employer seeks to “leverage” the employee’s job by
restricting the employee’s off-the-job speech as a private
citizen, this restriction raises more First Amendment
red flags. Garcetti, 547 U.S. at 419; see Connick, 461
U.S. at 153 n.13. This factor also supports Bennett.
She posted a comment on her Facebook page while at
home. She was acting like a private citizen, not a 911
operator. Cf. Packingham v. North Carolina, 137 S.
Ct. 1730, 1735-36 (2017).
Indeed, in other “unconstitutional conditions”
contexts, that Bennett’s speech occurred “on her own
time and dime” might well lead the Supreme Court to

App.41a
protect it without more. Compare Agency for Int’l Dev.
v. All. for Open Soc’y Int’l, Inc., 570 U.S. 205, 218 (2013)
(AOSI), with Rust v. Sullivan, 500 U.S. 173, 196-98
(1991). Consider speech restrictions on entities that
receive government funds to implement government
programs. There, the Court distinguishes speech restrictions imposed inside the context of the program (that
is, “those that specify the activities [the government]
wants to subsidize”) from speech restrictions “that
seek to leverage funding to regulate speech outside
the contours of the program itself.” AOSI, 570 U.S. at
214-15. When invalidating a law that sought to
regulate outside-the-program speech, the Court did
not consider whether that outside speech would disrupt the program’s effectiveness. See id. at 214-21; cf.
B.L. ex rel. Levy v. Mahanoy, 964 F.3d 170, 178-91 (3d
Cir. 2020).
All told, Bennett’s speech interests are significant
in this case because she spoke on her own time as a
private citizen and because her expression concerned
a presidential election.

Nashville’s Operational Interests. Yet Nashville
identifies two significant reasons for terminating
Bennett. Reason One: The jury found that Bennett’s
comment was likely to “undermine” the Emergency
Communications Center’s mission. Rankin, 483 U.S.
at 388. Many decisions recognize that public entities
performing law-enforcement functions have an interest
in maintaining “the respect and trust of the community”—an interest that has often allowed these entities
to fire employees who circulate “racist messages” even
on their own time. Pappas, 290 F.3d at 246-47; see
Grutzmacher v. Howard County , 851 F.3d 332, 347
(4th Cir. 2017); Sczygelski v. U.S. Customs & Border

App.42a

Prot. Agency, 419 F. App’x 680, 681 (8th Cir. 2011)
(per curiam); Locurto v. Giuliani, 447 F.3d 159, 17883 (2d Cir. 2006); Pereira v. Comm’r of Soc. Servs., 733
N.E.2d 112, 121-22 (Mass. 2000). To give the extreme
example, the government may fire law-enforcement
officers who promote the views of the Ku Klux Klan to
ensure the community’s trust in the government’s
nondiscriminatory enforcement of the laws. See
Weicherding v. Riegel, 160 F.3d 1139, 1143-44 (7th
Cir. 1998); cf. Bd. of Cnty. Comm’rs, Wabaunsee Cnty. v.
Umbehr, 518 U.S. 668, 700 (1996) (Scalia, J., dissenting). Nashville could reasonably conclude that
Bennett’s use of the n-word implicated this interest in
maintaining the community’s trust in the Emergency
Communications Center. She made the comment
publicly on a Facebook page that mentioned her
affiliation with the Center. That fact distinguishes
Bennett from the employee in Rankin, who made her
remark “in a private conversation” with a trusted
coworker. 483 U.S. at 389. And while Bennett was not
a police officer, her job as a 911 operator still entailed
the type of “public contact role” that the clerical
employee’s job in Rankin did not. See id. at 390-91.
Reason Two: The jury likewise found that Bennett’s
public use of the n-word would undermine relationships
at the Emergency Communications Center. Id. at 388.
That is not surprising. Many cases recognize this
slur’s offensive nature and its potential effect on
employment relations. “No other word in the English
language so powerfully or instantly calls to mind our
country’s long and brutal struggle to overcome racism
and discrimination against African-Americans.”
Ayissi-Etoh v. Fannie Mae, 712 F.3d 572, 580 (D.C.
Cir. 2013) (Kavanaugh, J., concurring); Rodgers v.

App.43a

Western-Southern Life Ins. Co., 12 F.3d 668, 675 (7th
Cir. 1993). When used in the workplace, courts often
have found that the word offers evidence of a racially
hostile environment in violation of Title VII. See, e.g.,
Gates v. Bd. of Educ. of the City of Chi., 916 F.3d 631,
638-40 (7th Cir. 2019); Adams v. Austal, U.S.A.,
L.L.C., 754 F.3d 1240, 1251-53 (11th Cir. 2014). Here,
while Bennett’s speech occurred outside the workplace,
Nashville could reasonably conclude that it hindered
employee relationships. According to the district court,
some six employees of the 120 or 125 employees at the
Emergency Communications Center complained about
her racial slur to supervisors.
Unlike in other contexts, moreover, the Supreme
Court has not drawn a clear divide between on-the-job
speech and off-the-job speech in this employment
setting. It has, for example, long upheld laws that
restrict employees from engaging in core political
speech even outside the job on their own time. See
Broadrick v. Oklahoma, 413 U.S. 601, 616-17 (1973);

U.S. Civil Serv. Comm’n v. Nat’l Ass’n of Letter
Carriers, AFL-CIO, 413 U.S. 548, 556 (1973). If the

government can terminate employees for core political
speech outside the workplace, it would be odd if they
could not consider an employee’s use of an offensive
racial slur outside the workplace too.
B
With significant interests on both sides, what are
courts to do? As in other contexts where “we must
juggle incommensurable factors,” I’m not sure I see a
“right” or “wrong” answer to this balancing question.
Am. Jewish Cong. v. City of Chicago, 827 F.2d 120, 129
(7th Cir. 1987) (Easterbrook, J., dissenting). In my

App.44a
respectful view after struggling with the task, Pickering’s instructions to engage in open-ended balancing
do not provide helpful guidance to resolve concrete
cases.

First, I find the Solomonic weighing of interests
difficult because it is “out of step with our interpretive
tradition.” Luis v. United States, 136 S. Ct. 1083, 1101
(2016) (Thomas, J., concurring in the judgment). As I
understand it, the balancing entails a “utilitarian
calculus” about what outcome best promotes the public
good: protecting the employee’s speech or the government’s operations. June Med. Servs. L.L.C. v. Russo, 140
S. Ct. 2103, 2136 (2020) (Roberts, C.J., concurring)
(citation omitted). Such a policy question requires us
to act more like “legislators” than “judges.” Id. The
Supreme Court’s usual method of constitutional interpretation, by contrast, relies on the text, structure, and
history of a provision (e.g., the Confrontation Clause)
to develop a workable legal test that we can neutrally
apply in individual cases (e.g., its divide between
testimonial and non-testimonial hearsay). Crawford
v. Washington, 541 U.S. 36, 67-68 (2004).
This balancing especially stands out from the
Supreme Court’s free-speech jurisprudence. The Court
has rejected as “startling and dangerous” the notion
that we may engage in “an ad hoc balancing of relative
social costs and benefits” of speech. United States v.
Stevens, 559 U.S. 460, 470 (2010); June Med. Servs.,
140 S. Ct. at 2179 (Gorsuch, J., dissenting). If the government targets speech based on content, the Court instead
asks whether the speech falls within a category that
the government has historically regulated. See Stevens,
559 U.S. at 468-69. If not, the Court applies rigorous
scrutiny rather than legislative balancing. Reed v.

App.45a

Town of Gilbert, 576 U.S. 155, 163 (2015); cf. Simon &
Schuster, Inc. v. Members of N.Y. State Crime Victims
Bd., 502 U.S. 105, 124-28 (1991) (Kennedy, J., concurring). If so, the Court strives to adopt an administrable
legal rule to define and delimit the category. Cf.
R.A.V. v. City of St. Paul, 505 U.S. 377, 393-94 (1992).
Take libel law. There, the Court adopted the “actual
malice” test. N.Y. Times Co. v. Sullivan, 376 U.S. 254,
283 (1964). It did not require lower courts to weigh in
every case an individual’s reputational interests against
the speaker’s expressive interests.

Second, this balancing requires us to compare
incomparable interests. Cf. Bendix Autolite Corp. v.
Midwesco Enters., 486 U.S. 888, 897 (1988) (Scalia, J.,
concurring in the judgment). Start with the employee’s
speech “interest.” If we are to “measure” that interest
using standard First Amendment gauges, the interest
should increase as the speech becomes more controversial. “If there is any fixed star in our constitutional
constellation, it is that no official, high or petty, can
prescribe what shall be orthodox in politics, nationalism,
religion, or other matters of opinion or force citizens
to confess by word or act their faith therein.” W. Va.
State Bd. of Educ. v. Barnette, 319 U.S. 624, 642 (1943).
“[T]he proudest boast of our free speech jurisprudence,”
then, is that we protect the speech “we hate.” Matal v.
Tam, 137 S. Ct. 1744, 1764 (2017) (Alito, J., opinion)
(citation omitted). The “Nazi Party may march through
a city with a large Jewish population.” Am. Booksellers
Ass’n v. Hudnut, 771 F.2d 323, 328 (7th Cir. 1985).
The Westboro Baptist Church may shout “Thank God
for Dead Soldiers” outside the funeral of a soldier
killed in the line of duty. Snyder, 562 U.S. at 448, 46061. And Gregory Lee Johnson may protest this country

App.46a
by burning the American flag, no matter “how repellent
his statements must be to the Republic itself.” Texas
v. Johnson, 491 U.S. 397, 421 (1989) (Kennedy, J., concurring). As these cases symbolize, the First Amendment has its most urgent application for speech on
public issues that many in our society might find
dangerously wrong. See Snyder, 562 U.S. at 460-61.
Conversely, the First Amendment would serve no purpose if it safeguarded only “majority views.” Bible
Believers v. Wayne County, 805 F.3d 228, 243 (6th
Cir. 2015) (en banc). Democracy does that well enough
on its own.
Turn to the government’s operational “interest.”
If we are to “measure” that interest under a considereverything test, it will surely increase as the speech
becomes more controversial (and thus more entitled to
protection). Rankin, 483 U.S. at 388. We must consider
such things as whether the speech will impair “harmony
among co-workers” or negatively affect “working
relationships.” Id. If an employee’s off-the-job political
advocacy sufficiently annoys coworkers who hold opposite views, does that suffice to terminate the employee?
What if non-religious coworkers are offended by a
religious coach’s decision to pray in a stadium on his
personal time? Cf. Kennedy v. Bremerton Sch. Dist.,
139 S. Ct. 634, 637 (Alito, J., respecting the denial of
certiorari). How about if an employee’s decision to kneel
during the national anthem (again on the employee’s
own time) garnered significant complaints? Pickering
has been the law for decades, yet it remains unclear
how much its balancing “constitionaliz[es] a ‘heckler’s
veto’ for controversial expressions”—even expressions
that occur on the employee’s personal time. Kozel, supra,
53 Wm. & Mary L. Rev. at 2019. In short, an employee’s

App.47a
speech interest will often move in lockstep with an
employer’s operational interest. How, then, can we
realistically assess which is “greater”?

Third, because this task requires us to compare
incommensurate interests, the proper outcome is
bound to be in the eye of the beholder. As one of my
colleagues said in another context, a subjective weighing
of interests “affords far too much discretion to judges
in resolving the dispute before them.” Daunt v. Benson,
956 F.3d 396, 424 (6th Cir. 2020) (Readler, J., concurring
in the judgment). And as Chief Justice Roberts
reminded, “under such tests, ‘equality of treatment
is . . . impossible to achieve; predictability is destroyed;
judicial arbitrariness is facilitated; judicial courage is
impaired.’” June Med. Servs., 140 S. Ct. at 2135 (Roberts, C.J., concurring) (quoting Antonin Scalia, The
Rule of Law as a Law of Rules, 56 U. Chi. L. Rev. 1175,
1182 (1989)).
These concerns have great force in this free-speech
context. For employees, Pickering’s opaque test has an
“obvious chilling effect on free speech.” Reno v. Am.
Civil Liberties Union, 521 U.S. 844, 871-72 (1997). It
“force[s] potential speakers to steer far wider of the
unlawful zone . . . than if the boundaries of the forbidden
areas were clearly marked.” Brown v. Entm’t Merchants
Ass’n, 564 U.S. 786, 807 (2011) (Alito, J., concurring
in the judgment) (citation omitted). Indeed, if a
legislature enacted Pickering’s balancing approach, I
doubt it would survive a void-for-vagueness challenge.
For employers, Pickering’s opaque test creates “unavoidable risks and costs” too. Wales v. Bd. of Educ. of
Cmty. Unit Sch. Dist. 300, 120 F.3d 82, 85 (7th Cir.
1997). Just as an unclear test may deter worthwhile

App.48a
expression, so too it may deter a worthwhile termination. By making the answer turn on an assessment
of each side’s generic interests, employers can have
little confidence that a federal court will agree that
their operational interests outweigh their employees’
speech interests. This uncertainty and the litigation
risk it creates could entrench employees in positions
for which they are ill-suited and thereby disserve the
populace the employer serves. Id.; cf. Harlow v.
Fitzgerald, 457 U.S. 800, 807 (1982).
C
If the abstract balancing does not help resolve
this case, where else should courts look? As best I can
glean from precedent, the public employer must win
where, as here, both sides have substantial interests
on their side. The Court has told us to give “substantial
deference” to an employer’s decision under Pickering.
Umbehr, 518 U.S. at 678. The plurality in Waters, for
example, noted that we should give “greater deference
to government predictions of harm used to justify
restriction of employee speech than to predictions of
harm used to justify restrictions on the speech of the
public at large.” 511 U.S. at 673 (plurality opinion).
Connick likewise said that “[w]hen close working
relationships are essential to fulfilling public responsibilities, a wide degree of deference to the employer’s judgment is appropriate.” 461 U.S. at 151-52. Our court,
too, has “long recognized ‘the importance of deference’
to law enforcement officials when speech threatens to
undermine the functions of organizations charged
with maintaining public safety.” Gillis v. Miller, 845
F.3d 677, 687 (6th Cir. 2017) (quoting Brown v. City of
Trenton, 867 F.2d 318, 322 (6th Cir. 1989)). In cases
like this one, therefore, precedent tells me to defer to

App.49a
a government’s decision that its operational interests
outweigh the employee’s speech interests.
History might further justify this default rule of
deference. Recall that, until the 1950s, the government
was not thought to have abridged the freedom of
speech by “curb[ing] the tongues of its own employees[.]”
Brown, 867 F.2d at 321; see also Rutan v. Republican
Party of Ill. , 497 U.S. 62, 96-97 (1990) (Scalia, J.,
dissenting). If accurate, cf. Janus v. Am. Fed’n of State,
Cnty. and Mun. Emps., 138 S. Ct. 2448, 2470-71 (2018),
this historical account might confirm that publicemployee speech represents a “category” of expression
over which the government has far greater room to
make content-based decisions. See Stevens, 559 U.S.
at 472; see also Ysursa v. Pocatello Educ. Ass’n, 555
U.S. 353, 359 (2009).
Or perhaps the Court should consider another
default rule. One scholar suggests that it should move
away from a “balancing” test to a default “of parity:
employees and other citizens are presumed to be
similarly situated for purposes of the First Amendment.”
Kozel, supra, 53 Wm. & Mary L. Rev. at 2011. Under
this view, courts should not engage in a broad balancing
of interests; they should narrowly ask whether an
employee’s speech (like an employee’s job performance)
sheds light on whether the employee can adequately
do the job. See id. at 2022-35. (Here, the jury found that
Bennett’s speech did not impair her ability to do her
job.) The Court has also refused to engage in “halfway
originalism.” Janus, 138 S. Ct. at 2470. So once it rejected Justice Holmes’s view by holding that a firing (like
a fine) can amount to an “abridgment” of the “freedom
of speech,” why should pragmatic concerns about
government operations outweigh longstanding free-

App.50a
speech values (such as the prohibition on the heckler’s
veto)? An abridgment is an abridgment. But these
proposals must be directed to a different tribunal. As
an intermediate appellate judge, I must apply current
doctrine where it stands. And I see a current default
rule of deference. For that reason, I concur in the
judgment.

App.51a
ORDER OF THE
UNITED STATES DISTRICT COURT FOR THE
MIDDLE DISTRICT OF TENNESSEE
(JUNE 25, 2019)
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
________________________
DANYELLE BENNETT,

Plaintiff,
v.
METROPOLITAN GOVERNMENT OF NASHVILLE
AND DAVIDSON COUNTY, TENNESSEE,

Defendant.
________________________
No. 3:17-cv-00630
Before: Eli RICHARDSON,
United States District Judge.
This First Amendment retaliation case is before
the Court in the aftermath of the jury returning its
unanimous answers to the special interrogatories
after several days of trial. As explained below, it now
falls upon the Court to determine, based in part on
those jury answers, whether Plaintiff’s speech at issue
in this case was constitutionally protected conduct. As

App.52a
set forth below, the Court answers that question in the
affirmative.
A.

First Amendment Retaliation: General Legal
Standards

The Court will begin by setting forth the general
legal framework for a First Amendment retaliation
claim, noting where the current question for the Court
fits into it, and then identifying the sub-issues and
general legal principles applicable to that question.
1. The Three Elements of a First Amendment
Retaliation Claim
To state a claim for First Amendment retaliation,
a plaintiff must establish that:
(1) [s]he engaged in constitutionally protected
speech or conduct; (2) an adverse action was
taken against h[er] that would deter a person
of ordinary firmness from continuing to
engage in that conduct; [and] (3) there is a
causal connection between elements one and
two—that is, the adverse action was motivated
at least in part by h[er] protected conduct.

Gillis v. Miller, 845 F.3d 677, 683 (6th Cir. 2017) (quoting Dye v. Office of the Racing Comm’n, 702 F.3d 286,
294 (6th Cir. 2012)). Whether the first element is
satisfied—i.e., whether the public-employee plaintiff’s
speech at issue is protected—is a question of law for
the court to decide.1 Mayhew v. Town of Smyrna, Tenn.,
856 F.3d 456, 462-64 (6th Cir. 2017). But that question
1 The parties are in mutual agreement with this proposition.
(Doc. No. 123 at 2; Doc. No. 124 at 1).

App.53a
is appropriately answered with input from the jury
regarding relevant issues of fact,2 and the input
provided by the jury in this case is identified and
discussed below.
As for the second element, it was never truly in
dispute at the trial of this case, as Plaintiff asserted
and Defendant (“Metro”) conceded before trial. (Doc.
No. 123 at 6; Doc. No. 124 at 2). And, as discussed
below, it was satisfied in this case.3
The third element—causation—is one for the jury
if the plaintiff can get that far, i.e., can satisfy the
court as to the first element such that the remaining
two elements must be addressed. As Metro correctly
has noted, however, it is appropriate to seek jury
input regarding causation, even prior to reaching the
third element, to assist in the analysis of the first
element. As Metro put it, “(1) the jury should determine
whether Plaintiff was terminated for a particular
portion of her speech and/or for any other reasons, and
(2) the Court should apply Pickering only to the
conduct for which Plaintiff was terminated.” (Doc. No.
124 at 6) (referring to the balancing test derived from
Pickering v. Bd. Of Educ., 391 U.S. 563, 568 (1968), and
its progeny). This approach makes sense because the
so-called Pickering balancing test—which as discussed
2 See Pucci v. Nineteenth Distr. Ct., 596 F. App’x 460, 470 (6th Cir.
2015). The parties are in mutual agreement with this proposition
also. (Doc. No. 123 at 6; Doc. No. 124 at 3, 4).
3 Plaintiff has asserted that the satisfaction (or lack thereof) of
this element is “arguably” for the jury to decide. (Doc. No. 123 at
6). However, neither party requested that this issue be submitted
to the jury, perhaps because each party had concluded that it was
essentially a non-issue given the facts in this case.

App.54a
below is the last of three sub-elements of the first
element of a First Amendment retaliation claim—is
applied to the plaintiff’s “speech,” and the only speech
that can support a plaintiff’s retaliation claim is speech
that resulted in adverse action.4 Thus, as discussed
further below, to assist it in connection with the issue
now before it, the Court submitted a special interrogatory to the jury, asking the jury to identify the reason
or reasons for which Plaintiff was terminated.5
2. The First Element, Constitutionally Protected
Speech, and Its Three Sub-Elements
To show that she was engaged in constitutionally
protected activity, a public employee alleging First
Amendment retaliation must satisfy three sub-elements:
First, the employee must speak on “matters
of public concern.” Evans-Marshall v. Bd. of
Educ., 624 F.3d 332, 337 (6th Cir. 2010)
(citing Connick [v. Myers, 461 U.S. 138, 142
(1983)]). Second, the employee must speak as
a private citizen and not as an employee
4 The same goes for the first two sub-elements; those two elements
are pegged to the plaintiff’s “speak[ing],” and it would make little
sense to apply the test to anything other than the “speaking”—
i.e., speech—for which the plaintiff suffered adverse action, since
that alone is the speech that can support a retaliation claim.
5 If the Court finds that one or more such reasons constitutes
constitutionally protected conduct, it would seem a foregone
conclusion that the jury will find that Plaintiff has satisfied the
third element of her retaliation claim, i.e., that the adverse action
against Plaintiff was motivated at least in part by such protected
conduct. Be that as it may, the satisfaction (or non-satisfaction)
of the third element is one that the jury must decide, and thus
the Court will submit that issue to the jury.

App.55a
pursuant to his official duties. Id. at 338
(citing Garcetti [v. Ceballos, 547 U.S. 410,
417 (2006)]). Third, the employee must show
that his speech interest outweighs “the interest of the State, as an employer, in promoting
the efficiency of the public services it performs
through its employees.” Id. (quoting Pickering,
391 U.S. at 568).

Mayhew, 856 F.3d at 462.
“‘[T]he First Amendment protects a public employee’s right, in certain circumstances, to speak as a
citizen addressing matters of public concern.’” Id.
(quoting Garcetti, 547 U.S. at 417). While it has been
“long ‘settled that a state cannot condition public
employment on a basis that infringes the employee’s
constitutionally protected interest in freedom of
expression,’” Connick, 461 U.S. at 142, such protections
must be construed in balance with the efficient functioning of government services. Mayhew, 856 F.3d at
461-62. In other words, if you bring a claim against
your employer under the First Amendment, you must
convince the court that your interest in speaking openly
on a matter of public concern outweighs the government’s interest in having an efficient workplace. “Thus,
an individual’s First Amendment rights as a public
employee are narrower than those of the citizenry at
large.” Haddad v. Gregg, 910 F.3d 237, 244 (6th Cir.
2018) (citing Mayhew, 856 F.3d at 461-62).
B.

The Jury’s Answers to Special Interrogatories

For the reasons and to the extent indicated above,
the Court submitted special interrogatories to the jury.
The number of submitted interrogatories, the purpose
of each submitted interrogatory, and the general syntax

App.56a
of each submitted interrogatory matched Metro’s proposal for special interrogatories. Compare Doc. No. 124
at 5-6, 7 with Doc. No. 145. As to each of the first five
interrogatories (which solicited merely a “Yes” or “No”
answer), the question posed was identical to the question
proposed by Metro, except that one phrase was
removed from interrogatory No. 2 at the request of
Plaintiff without objection from Metro.6 As to the final
submitted special interrogatory, No. 6, it asked the
jury to identify the reason or reasons for Plaintiff’s
termination by checking one or more boxes corresponding to pre-identified choices and/or by handwriting
in any additional reason(s) for termination. As submitted, this interrogatory reflected various changes to
the language proposed by Metro for purposes of clarity
and avoidance of redundancy but, in the Court’s view,
was entirely consistent with the spirit of Metro’s
proposal. With these changes, the special interrogatories were submitted to the jury without objection
from either party after closing arguments on the fifth
day of trial, June 20, 2019.
The next afternoon, the jury returned its special
verdict, unanimously answering each of the six special
interrogatories. (Doc. No. 145). To summarize, the jury
found that Plaintiff’s Facebook comment was reasonably
likely to (1) have a detrimental impact on close working
relationships at the Emergency Communication Center
(“ECC”), and (2) undermine the mission of the ECC,
but not reasonably likely to (1) impair discipline by
superiors at the ECC, (2) impede the performance of
Plaintiff’s duties at the ECC, or (3) interfere with the
6 In addition, submitted interrogatory No. 3 removed an extraneous letter “s” erroneously contained in Metro’s proposal).

App.57a
orderly operation of the ECC.7 As to the nature and
extent of the (a) detrimental impact on close working
relationships and (b) undermining of the ECC’s mission,
the jury was not asked and did not indicate. As set
forth below, however, based on the evidence at trial
the Court can and does draw some conclusions as to
the nature and extent of these forms of disruption
visited upon the ECC by Plaintiff’s Facebook post.
As for the reason(s) for Plaintiff’s termination the
jury indicated two. First, the foreperson checked the
box, “for using the term ‘niggaz’ when expressing her
views regarding the outcome of a national election on
Facebook.” Second, the foreperson handwrote, “because
the box we checked above violated Charge 1, 2 and 3
of Plaintiff’s termination letter.” Given the (understandable and indeed expected) relative brevity of the
answers provided by the jury, the question arises as
to the identity and value of the speech for which she
was terminated. However, as set forth below, based on
the evidence at trial the Court can and does draw some
conclusions as to the identity (and the corresponding
First Amendment value) of the speech at issue.
C.

The Constitutionally Protected Nature of the
Speech That Was the Reason for Plaintiff’s
Termination

It falls upon the Court, given the above background,
to determine whether Plaintiff’s speech at issue—i.e.,
7 In response to inquiries from the jury via notes from its foreperson, the Court, without objection, provided some degree of
explanation as to the meaning of the terms “likely to impair
discipline by superiors” and “interfere with the orderly operation
of the ECC.” (Doc. Nos. 143-144). Each party agreed to the explanation provided.

App.58a
the speech that was a reason for her termination—is
protected speech, such that she may maintain her
claim of retaliation based on it.
To make this determination, the Court need not
and will not pronounce judgment on numerous issues
that appear to surround this case. Among them are:
whether the use of the N-word is in fact always offensive;
whether the history of the use of the word reflects a
stain on the American legacy; whether complainants
were rightly upset at Plaintiff’s use of the N-word;
whether leadership at ECC was rightly concerned
about Plaintiff’s use of the N-word and the resulting
complaints it generated; whether certain other responsive steps taken by ECC leadership (besides taking
adverse action against Plaintiff), including speaking
with Plaintiff about it, were appropriate; whether
Metro’s adverse action was taken in good faith; and
whether Metro in this litigation has sought to vindicate
a disciplinary action it sincerely believes was appropriate. Also not directly at issue, despite any suggestion
by Metro or its witnesses to the contrary, is whether
Plaintiff “should have” used a different word. Instead,
the question now for the Court directly concerns only
whether the three sub-elements to a finding of protected
speech have been satisfied; this question may be
impacted to a degree by the various issues listed
immediately above, but none of those issues are for
the Court to resolve now.
1. Plaintiff Spoke on a Matter of Public Concern
As noted above, the jury found (by checking the
corresponding box) that Plaintiff was terminated for
using the term “niggaz” when expressing her views

App.59a
regarding the outcome of a national election on Facebook. The only reasonable interpretation of the jury’s
handwritten portion of its answer to special interrogatory No. 6 is that Plaintiff was also terminated
because her use of the N-word when expressing her
views regarding the outcome of a national election on
Facebook was in fact (as charged by Metro) in violation
of each of the three Civil Service Rules identified in
Plaintiff’s termination letter.
The question, then, is what was the speech
identified by the jury as a (or the) reason for Plaintiff’s
termination? Whether it was the reason for termination
(a) in and of itself, irrespective of any Civil Service
Rules, or (b) because it was in violation of particular
Civil Service Rules, the reason for Plaintiff’s termination,
as determined by the jury, was her “using the term
‘niggaz’8 when expressing her views regarding the
outcome of a national election on Facebook.”9
In a conceivable attempt to minimize the cognizable
First Amendment interest in the speech that resulted
in Plaintiff’s termination, Metro perhaps would seize
on the first few words to argue that the jury found that
Plaintiff was terminated entirely and exclusively for
8 Hereinafter, the Court will indulge its strong preference not to use
this word and instead use the term “N-word” wherever possible.
9 To the extent that Metro might now wish to assert that Plaintiff’s
termination was the result simply of policy violations and not of
any speech, such argument would fail, for two reasons. First, the
jury’s answer identifies as the policy violations Plaintiff’s speech;
it equates the policy violations with Plaintiff’s speech. Moreover,
Metro’s position has never been that Plaintiff’s termination
resulted from policy violations independent from speech, and in
its closing argument it unequivocally identified three reasons for
Plaintiff’s termination, one of which was her use of the N-word.

App.60a
use of the N-word, irrespective of any context. Any
such argument, if accepted, would aid Metro by
diminishing the First Amendment value of the speech
at issue, since a single word by itself (be it the N-word
or some other word) obviously has much less expressive
content than a short message (such as Plaintiff’s
Facebook message of three short sentences) or even
a short phrase. The Court could not accept any such
argument, however. By its terms, the jury’s answer
identifies the reason for Plaintiff’s termination: the
use of the N-word when expressing her views regarding
the outcome of a national election on Facebook. In
other words, the reason was Plaintiff’s use of the Nword in a particular context, i.e., a discussion of the
outcome of a national election.
This interpretation is supported not only by the
words of the jury’s answer, but also by the evidence in
this case. In the Court’s view, multiple witnesses
presented by Metro opined that the use of the N-word
was always offensive, at least when the user was not
African-American; indeed, the Court perceived this to
be the view of Metro’s exclusive ultimate decisionmaker
as to Plaintiff’s termination (Michelle Donnegan). But
no witness asserted that the use of the N-word, by itself
and irrespective of context, was a fireable offense or
was the reason for Plaintiff’s termination. If Metro
wished to make such assertion(s), it needed to support
it with, at a minimum, testimony to that effect from a
relevant witness. For this reason, and also because
any such assertion is inherently suspect,10 the Court
would not accept any such assertion now.
10 The Court perceives Plaintiff’s counsel to have been alluding
to the unlikeliness of the mere use of the N-word always being
grounds for termination, irrespective of context, when he asked

App.61a
What evidence that does exist on this point
indicates that Metro’s concern was with Plaintiff’s
Facebook comment as a whole, and not just with her use
of the N-word per se. For example, Bruce Sanschargrin’s
investigative report of November 10, 2016 began its
“Allegation” Section, “Current and previous employees
found a posting on Danyelle Bennett’s Facebook page
that they felt was offensive and racially charged.”
(Def. Ex. 1) Thereafter, his report repeatedly referenced
concerns over the “post” (or “posting”) without ever
once referencing a concern with something narrower
than the post as a whole, such as the stand-alone fact
that the N-word was used. Likewise, the “Summary”
in the December 28, 2016 charge letter to Plaintiff
began, “On November 9, 2016, while off duty, you
posted comments on your personal Facebook that were
derogatory and offensive towards the Caucasian and
African-American races.” (Def. Ex. 13). It was that
specific letter upon which disciplinary action was taken
against Plaintiff, as Plaintiff’s termination letter noted
at its very outset. (Pl. Ex. 19). In addition, the provision
certain witnesses on cross-examination whether they thought it
would be grounds for discipline to quote language from Dr. Martin
Luther King, Jr. or former President Obama wherein each used
the N-word. Mr. Sanschargrin’s response (given without any
reference to applicable authority) was that so doing would be
“unacceptable” for a self-identified Metro employee, but he did
not say that it would be grounds for discipline (with or even
without a sufficient disclaimer). Given the prevailing lack of
evidence to the contrary, the Court is loath to believe, and will
not conclude, that Metro would treat such use of the N-word as
an offense worthy of discipline. The Court likewise cannot
conclude that it would be grounds for discipline if, for example, a
Metro employee on Facebook (making a sufficient disclaimer)
denounced the bigoted use of the N-word and, in so doing, happened
to use the N-word itself.

App.62a
of Metro’s Information Security policy that (according
to Metro) Plaintiff violated by not posting a disclaimer
specifically requires a disclaimer only as to an
employee’s “expressed views,” a term that does not
reasonably cover the mere use of a single word devoid
of context. In sum, the evidence plainly indicates that
Metro’s concern was with Plaintiff’s post as a whole,
and not merely the N-word that comprised only a
(concededly significant and troubling) part thereof.
Thus, the Court considers the entire Facebook
comment as the speech for which Plaintiff was terminated. This approach is supported not only by the
jury’s answer and the evidence (and lack of evidence)
at trial, but by the general notion that the plaintiff’s
statement as a whole, rather than a single isolated word
therein, should be analyzed in determining whether
the plaintiff enjoys First Amendment protection for
the statement. See Devlin v. Kalm, 630 F. App’x 534,
540 (6th Cir. 2015) (explaining that the plaintiff’s use
of the word “deadbeat” was “part and parcel of his
critique of his public employer” and the court saw “no
reason to analyze this single word separately from the
entirety of [the plaintiff’s] statement”).
Relatedly, “[a] public employer may not divorce a
statement made by an employee from its context[.]
. . . Such a tactic could [result in] a statement which,
out of context, may not warrant the same level of First
Amendment protection it merited when originally
made.” Rankin v. McPherson, 483 U.S. 378, 386 n.10
(1987). In other words, it is not just what the plaintiff
said, it is the context in which it was said. So as a
general principle, which has not been shown to be
inapplicable here, it is not just that Plaintiff said the
N-word word, it is the context in which she said it. In

App.63a
other words, it is her Facebook comment as a whole
that is the speech at issue.
As indicated by the jury’s answer, the comment
related to the outcome of a national election. From the
words of the comment itself, it related to voting
patterns, and who voted for one of the candidates, in
the 2016 presidential election. Without question, her
comment was on a matter of public concern. Speech
touches on a matter of public concern if it relates “to
any matter of political, social, or other concern to the
community.” Dye, 702 F.3d at 295 (quoting Connick,
461 U.S. at 146). Speech relating to a major election
clearly qualifies. See id. at 297 (noting that gubernatorial
election is a matter of public concern); Henry v. Roane
Cnty., Tenn., No. 3:16-CV-689, 2018 WL 2422744, at
*3 (E.D. Tenn. May 29, 2018) (“Supporting a candidate
for an election touches on a matter of public concern.”)
(citing Dye, 702 F.3d at 297).
As stated in Goza v. Memphis Light, Gas & Water
Div., No. 2:17-CV-2873-JPM-DKV, 2019 WL 2484091,
at *7 (W.D. Tenn. June 14, 2019), “[w]hile [the plaintiff’s]
statements on Facebook may have been offensive, he
expressed opinions on matters of public concern,
including race[.]” See Connick, 461 U.S. at 146; Rankin,
483 U.S. at 387 (“The inappropriate or controversial
character of a statement is irrelevant to the question
whether it deals with a matter of public concern.”).
2 Plaintiff Spoke as a Private Citizen
The second element of the inquiry asks whether
the employee spoke as a private citizen or as a public
employee. In Garcetti, the Supreme Court held that
“when public employees make statements pursuant to
their official duties, the employees are not speaking as

App.64a
citizens for First Amendment purposes, and the
Constitution does not insulate their communications
from employer discipline.” 547 U.S. at 421. But as
noted above, Metro effectively conceded that Plaintiff
spoke as a private citizen—and with good reason.
There was no evidence at trial that Plaintiff was, or
could reasonably be construed to be, authorized to
speak on Metro’s behalf regarding anything remotely
related to the topic of her Facebook comment; indeed,
at trial there was no evidence or even suggestion that
any employee or other representative of Metro was or
ever would be authorized to speak on Metro’s behalf
about any topics along these lines—topics which hardly
are the stuff of municipal governance.
Finally, the entire crux of Plaintiff’s violation of
Metro’s Information Security policy was that she did
not make clear the fact that in posting her comment
she was not speaking on behalf of Metro.
Thus, like the first sub-element, the second subelement of constitutional protection for Plaintiff’s
speech has been satisfied.
3. Pickering Balancing
Finally, with the first two sub-elements satisfied,
the Court must balance the employee’s rights and the
employer’s interest in the efficiency of public services.
Miller v. City of Canton, 319 F. App’x 411, 417 (6th Cir.
2009) (applying Pickering, 391 U.S. at 568); Dye, 702
F.3d at 295 (“When speech does relate to a matter of
public concern, the court must then apply the Pickering
balancing test ‘to determine if the employee’s free
speech interests outweigh the efficiency interests of
the government as an employer.’” (quoting Scarbrough
v. Morgan County Bd. Of Educ., 470 F.3d 250, 255 (6th

App.65a
Cir. 2006) (internal quotation marks omitted) (relying
on Pickering))).
In Rankin, the Supreme Court recognized the
following considerations as relevant to Pickering
balancing: whether the statement impairs discipline
by superiors or harmony among coworkers, has a
detrimental impact on close working relationships for
which personal loyalty and confidence are necessary,
impedes the performance of the speaker’s duties or
interferes with the regular operation of the enterprise,
or reasonably likely to undermine the mission of the
enterprise. 483 U.S. at 388. Also relevant in the
Pickering analysis are “the manner, time, and place of
the employee’s expression, as well as the context in
which the dispute arose.” Rodgers v. Banks, 344 F.3d
587, 601 (6th Cir. 2003) (quoting Rankin, 486 U.S. at
388) (internal quotation marks omitted).
The burden is on the governmental agency to
justify the discharge on legitimate grounds. Rankin,
483 U.S. at 388.11 In other words, the burden is on the
governmental agency to show that its “legitimate
interest in regulating employee speech to maintain an
efficient workplace outweighed [the plaintiff’s] First
Amendment rights,” Kelly v. Warren Cnty. Bd. of
11 As indicated elsewhere, the Court had the jury answer five
“yes or no” factual questions related to the Pickering balancing.
On each question, Metro manifestly desired a “yes’ answer and
Plaintiff manifestly desired a “no” answer. The Court did not
instruct the jury that Metro (or, for that matter, Plaintiff) bore
the burden of establishing the correctness of its preferred choice.
Thus, the Court did not treat Metro’s burden of showing that the
Pickering balancing cuts in its favor as entailing a burden to
establish the jury-determined facts that would advantage it in
the Pickering balancing.

App.66a

Comm’rs, 396 F. App’x 246, 250 (6th Cir. 2010) (citing
Connick, 461 U.S. at 150). See also Ellison v. Knox Cnty.,
157 F. Supp. 3d 718, 724 (E.D. Tenn. 2016) (holding
that in that case, “defendants have not met their
burden with regard to the Pickering analysis.”). “The
government must make a particularly strong showing
where the speech substantially involves matters of
public concern.” Miller, 319 F. App’x at 417 (citing
Cockrel v. Shelby Cnty. Sch. Dist., 270 F.3d 1036, 1053
(6th Cir. 2001) (internal quotation marks and alterations omitted).

Pickering balancing is notoriously fact-specific
and difficult. See Connick, 461 U.S. at 151; Garcetti,
547 U.S. at 418. The Pickering balancing test is a “‘somewhat imprecise standard.’” Williams v. Commonwealth
of Ky., 24 F.3d 1526, 1537 (6th Cir. 1994) (quoting
Meyers v. City of Cincinnati, 934 F.2d 728, 729 (6th
Cir. 1991)). Nonetheless, courts are called to undertake
the daunting task of applying this subjective test,
“reach[ing] the most appropriate possible balance of
the competing interests.” Connick, 461 U.S. at 151.
The Court will do so here, in the particular
context of a dispute that is fraught with great meaning
for each party. In so doing, the Court does not balance
the factors as some sort of academic exercise, unmoored
to an actual standard. Nor does it merely tally the
number of factors aligning on the parties’ respective
sides, as if keeping score in some sort of game. Instead,
though acknowledging and analyzing the factors and
circumstances individually, the Court balances them
as a whole with an eye toward the overarching question
the factors are supposed to help answer: does the
balance favor “the interests of the [employee], as a
citizen, in commenting upon matters of public concern

App.67a
[or] the interests of the [municipality], as an employer,
in promoting the efficiency of the public services it
performs through its employees[?]” Pickering, 391
U.S. at 568. Throughout its analysis, the Court should
keep in mind the “overarching objectives” in this area
of the law. Garcetti, 547 U.S. at 418. If the plaintiff’s
comments are regarding matters of great public interest,
and they had only minimal effect on the efficiency of
the office, then the Pickering balancing clearly goes
against the public employer. Williams, 24 F.3d at 1537.
Upon application, the test reveals to the Court
that Metro has not met its burden as required to
prevail under the Pickering test. Metro has shown,
and proven to the jury, some effect on the effective
functioning of the office, but it is too minimal to
override Plaintiff’s free speech rights.
a. Circumstances Favoring Plaintiff in the
Pickering Balancing
i. Plaintiff’s Facebook Comment Involved
Speech that Substantially Involved a
Matter of Public Concern
Here, as discussed above, the jury has unanimously
concluded that Plaintiff was terminated for using the
term “niggaz” when expressing her views regarding
the outcome of a national election on Facebook. That
is, the reason for her termination was her use of the
N-word in a particular context, i.e., a discussion of the
outcome of a national election.
“Expression on public issues has always ‘rested
on the highest rung of the hierarchy of First Amendment
values.’” NAACP v. Claiborne Hardware Co., 458 U.S.
886, 913 (1982) (quoting Carey v. Brown, 447 U.S.

App.68a
455, 467 (1980)); see also Connick , 461 U.S. at 150
(explaining that the greater the extent to which the
speech involves matters of public concern, the stronger
the employer’s showing must be). Plaintiff’s Facebook
comment occupies this highest rung. The Court finds
substantial merit in these recent observations from
another district court:
On the employee side of the scale, courts
examine how closely the employee’s speech
comes to the core of the First Amendment. “The
more tightly the First Amendment embraces
the speech the more vigorous a showing” the
government must make to justify curtailing
that speech. Johnson v. Multnomah Cnty., 48
F.3d 420, 426 (9th Cir. 1995).

Sabatini v. Las Vegas Metro. Police Dep’t, 369 F. Supp.
3d 1066, 1085-86 (D. Nev. 2019). For these reasons,
Metro’s showing must be particularly strong.
ii. Plaintiff’s Facebook Comment Was Made
Not Privately, But Rather in a Public
Forum, Accessible to a Wide Swath of
the Public
The same district court also observed, “Similarly,
the more an employee directs his speech at the public
or the media—rather than a smaller, private audience—
the more the First Amendment is implicated.” Id. This
cogent observation poses a conundrum for Metro. In
justifying its termination of Plaintiff, Metro has relied
upon the fact that her Facebook message was public,
thus greatly heightening the size of her audience (and
potential audience) and thus the potential harm. Fair
enough. But there is a flip side to this coin: for precisely

App.69a
this reason, Plaintiff’s Facebook post has greater
countervailing First Amendment value.
iii. Plaintiff’s Facebook Comment Was
Unrelated to, and Made Outside of,
Work at ECC
Plaintiff’s post occurred outside of work and did not
relate to the ECC. This fact cuts against Metro. See
Scarbrough, 470 F.3d at 257-58 (“Speech and conduct
that occur outside the office walls and that do not
relate to work interfere less with office efficiency than
conduct that occurs inside the office or that relates to
the employee’s work.” (citing Connick, 461 U.S. at 153));
Eberhardt v. O’Malley, 17 F.3d 1023, 1027 (7th Cir.
1994) (“The less [a plaintiff’s] speech has to do with
the office, the less justification the office is likely to
have to regulate it.”).
iv. Jury Findings Favoring Plaintiff as to
Specific Pickering Factors
As indicated above, the jury answered each of the
following three questions in the negative:
Was Plaintiff’s Facebook comment reasonably
likely to impair discipline by superiors at the
Emergency Communication Center?
Was Plaintiff’s Facebook comment reasonably
likely to impede the performance of Plaintiff’s
duties at the Emergency Communication
Center?
Was Plaintiff’s Facebook comment reasonably
likely to interfere with the orderly operation
of the Emergency Communication Center?

App.70a
Each of these findings indicates the actual absence
of an important alleged aspect of disruption upon which
Metro relies. These jury findings thus constitute
significant blows to Metro’s prospects for meeting its
burden as to Pickering balancing.
b. Circumstances Favoring Metro in the
Pickering Balancing
i. Jury Findings Favoring Metro as to
Specific Pickering Factors
As indicated above, the jury answered each of the
following two questions in the affirmative:
Was Plaintiff’s Facebook comment reasonably
likely to have a detrimental impact on close
working relationships at the Emergency Communication Center?
Was Plaintiff’s Facebook comment reasonably
likely to undermine the mission of the Emergency Communication Center?
These answers are certainly points in Metro’s
favor. However, these are not especially strong points,
as revealed by a closer inspection of each one in turn.
Consistent with the jury’s answer, there was
evidence at trial to support the notion that Plaintiff’s
Facebook comment would have a detrimental impact
on close working relationships. However, in the Court’s
view, there was no evidence whatsoever of any
detrimental impact on any working relationships at
the ECC other than Plaintiff’s working relationships
with whoever might be upset with her, or lose respect
for or confidence in her, based upon her Facebook
comment. As for all employees at the ECC other than

App.71a
Plaintiff, to the extent the evidence revealed anything,
it was that they were, if anything, brought closer
together by the emotions, and ameliorative response
from ECC leadership, provoked by Plaintiff’s Facebook
comment. The evidence revealed neither the fact, nor
even the risk, of anyone aligning with Plaintiff in a
manner that would create the kind of office schism
that so often is at issue in cases like Pickering and its
progeny.
The Court realizes that disharmony can count in
the defendant’s favor even where, as here, the disharmony is only between the plaintiff alone on one side
and various other employees on the other side, and
even if the disharmony has nothing to do with the
plaintiff’s employment or the defendant’s office. But
such disharmony counts not nearly as much as the
kind of actual or threatened disharmony in cases like
Connick, where the disharmony at issue concerns the
possibility of the office being split in two, with
employees divided into opposing camps with respect
to the running of the defendant’s office. Connick, 461
U.S. at 152-153. In short, the Court believes that disharmony counts far less in the defendant’s favor when
it takes the form, as here based on Metro’s own
evidence, of seemingly everyone else with an opinion
deeming the plaintiff’s conduct beyond the pale and
treating her as something of a pariah.
Relatedly, the disharmony is far less in a case like
the present, where Plaintiff’s comments were not
directed at any co-workers or supervisors, and did not
reflect or seek to create any dispute with her employer

App.72a
or co-workers.12 This serves to distinguish this case
from many others, like Connick. In Connick, the
plaintiff had circulated within the office a questionnaire
asking, inter alia, whether recipient employees had
confidence in and relied on the word of five named
supervisors. As the Supreme Court noted, such a
question “is a statement that carries the potential for
undermining office relations.” 461 U.S. at 152. The
Court noted that the plaintiff’s efforts constituted what
the plaintiff’s superiors deemed “‘a mini-insurrection
. . . an act of insubordination which interfered with
working relationships.” Id. at 151. Plaintiff’s case
involves nothing of the sort.
To the extent that the relative importance of close
working relationships is relevant to Pickering balancing,
the Court recognizes the importance of close working
relationships at the ECC. The Court noted in its order
denying summary judgment to Defendant that the
ECC is not precisely akin to a police or fire department
and does not have quite the same enormous need for,
among other things, harmonious relations
The Court finds that the Department’s need
12 The Court realizes that many of Plaintiff’s co-workers fell within
a group (African Americans) that might understandably feel very
offended by her use of the N-word. But that does not mean that
she directed her Facebook comment, or her use of the N-word, at
any of them. Still less does it mean that her Facebook message,
had only the N-word been replaced with “African Americans” would
have been some kind of insult directed at any African American
co-workers; the content of the message seemingly was to praise
African Americans for their voting choices in the 2016 presidential
election and to claim that African Americans were with her—
included—in a particular political movement, rather than excluded
as some sort of group of distrusted “others” who should be marginalized.

App.73a
to control its dispatchers is not as substantial
as the need of a police department or fire
department to control its personnel. As even
young children well know, many employees
of fire and police departments (typically but
not always uniformed) regularly make vital
decisions out in the streets and buildings of our
community—decisions which all-too-regularly
have life-and-death consequences for those
employees and their on-the-job partners.
Moreover, such employees well know that on
any given day, they may need to rely on each
other to quite literally and physically save
the lives of each other or other member of the
community. In addition, such employees typically work in a regimented command structure
involving formal ranks, such as “captain.”
In this context, the need for loyalty,
discipline, and workplace harmony—among
such employees but also other employees
with less harrowing duties but the same
overall mission—is greatly heightened.
No such heightened need has been shown for
the Department. Undeniably, the Department
performs vital work that can involve teamwork
and the saving of lives telephonically, and
thus discipline and esprit de corps certainly
matter to some extent. But elements such as
command structure, and potential reliance
on a work partner to save one’s life, are simply
missing from the Department’s equation.
Thus, the Court notes that Defendant’s need to
have strong control over its internal affairs is somewhat

App.74a
less than the need of a police department or fire
department to do so.
After submission of all evidence at trial, the
Court comes down in the same place. Metro elicited
a good deal of testimony as to the importance of
harmonious relationships in the vital work ECC does.
The testimony illuminated how ECC call-takers receive
calls from members of the public, then have to
communicate quickly and accurately with dispatchers
to send the right help to the right place without any
undue delay, and in the process naturally work closely
with police and fire fighters; via this testimony, Metro
seemingly sought to portray ECC almost as sort of an
arm of the police and fire services. The Court respects
this work and sees the importance of harmonious
relationships in ECC’s efforts to save lives and avert
disasters. But the Court adheres to its view that there
is a significant difference: police and fire departments
have command and control structures that the ECC
does not, and personnel who assume they may someday
need to save each others’ lives. In this sense, harmonious
relations at the ECC do not have quite the same
importance.
Finally, the Court is underwhelmed by the indications of disharmony that actually were available to
Metro’s decisionmaker, Michelle Donnegan, at the time
she took adverse action against Plaintiff.13 It appears
13 As Metro’s decisionmaker, Ms. Donnegan’s personal perception
of relevant information, to the extent reasonable, is key in this
analysis. “We think employer decisionmaking will not be unduly
burdened by having courts look to the facts as the employer
reasonably found them to be. It may be unreasonable, for example,
for the employer to come to a conclusion based on no evidence at
all. Likewise, it may be unreasonable for an employer to act

App.75a
that of the 120-125 employees working at the time at
the ECC in the same telecommunicator position as
Plaintiff,14 Ms. Donnegan, according even to a generous
view of her testimony, was aware of no more than
roughly a half dozen complaints from ECC employees,
i.e., complainants whose working relationship with
Plaintiff might be impaired. That number counts for
something in Metro’s favor, to be sure, but it is not
very suggestive of actual or even likely impairment of
“the efficiency of the public services it performs through
its employees,” which is what the Pickering test
ultimately aims to assess with respect to the employer’s
side. Pickering, 391 U.S. at 568. In Williams, the Sixth
Circuit held that no reasonable official could conclude
that disruption of the working relationship between
the plaintiff and two co-workers outweighed the
interest of the plaintiff in speaking on political
matters. Williams, 24 F.3d at 1537. The Court does
not see how the disharmony established by Metro
between Plaintiff and several co-workers gets Metro
much further than the disharmony got the defendants
in Williams.

based on extremely weak evidence when strong evidence is
clearly available—if, for instance, an employee is accused of
writing an improper letter to the editor, and instead of just
reading the letter, the employer decides what it said based on
unreliable hearsay.” Waters v. Churchill, 511 U.S. 661, 677 (1994).
Thus, the Court will focus substantially on what Ms. Donnegan
believed, to the extent such belief was reasonable under all of the
circumstances, including the easy availability of additional
information that could confirm or refute a particular belief she
held.
14 Ms. Donnegan provided this figure in her testimony.

App.76a
And it is not just the known quantity of complaints
that is less than striking; it is also the known
“quality”—the seriousness and resulting consequences—
of the complaints. It is entirely clear to the undersigned
that Ms. Donnegan was not very informed as to the
seriousness, and actual existing or likely effects, of the
complaints. The “investigation,” if one can call it that,
of Mr. Sanschargrin was entirely inadequate to inform
her on these matters,15 and she made the decision
uninformed. Metro is free to conduct an “investigation”
this limited if it chooses to do so, but it must bear the
consequences here: its decision maker lacked sufficient
objective facts that otherwise could boost Metro’s
performance under the Pickering factors, including
impairment of close working relationships. At trial,
Metro elicited testimony from a few witnesses conveying
details as to the views of themselves, and/or some other
ECC employees, as to the effect on working relationships. With few exceptions, however, there is no
indication that Ms. Donnegan knew such particulars
regarding these employees’ feelings in this regard. To
the contrary, the Court infers from the following
testimony that Ms. Donnegan knew of only a single
employee whose working relationship with Plaintiff
was impacted to the extent that working together with
Plaintiff might be an issue:
Q: And the only person, the only person who
has ever told you that they would have a
problem working alongside [Plaintiff] would
15 Ms. Donnegan testified that she received from Mr. Sanschargrin
only his November 10, 2016 investigation report (Def. Ex. 1)—which
is notably sparse in content—and never thereafter received anything
from him in writing on this matter.

App.77a
be Alisa Franklin?
A: She did state that, yes, sir.
In short, Ms. Donnegan knew of some complaints,
but not much about them, and not much to indicate
that there likely would be a problem for employees to
work together with Plaintiff.
In more general terms, the Court notes that the
investigation (conducted by Mr. Sanschargrin) was not
intended to, and did not, gather more than minimal
information regarding actual or even likely disruption
within the office. As Mr. Sanschargrin testified, “My
investigation was regarding [Plaintiff’s] actions and
containing that, it was not surrounding the other
employees or I didn’t know how far the post went . . . ”
For example, Mr. Sanschargrin did not conduct a
single interview of a complainant. He did not even know
how many complainants there were; when asked on
cross-examination to confirm that only five employees
complained, he replied, “Actually I do not know how
many did because they didn’t come to me.” When Ms.
Donnegan was asked the same thing, she was able to
answer only, “I do not know that number to be correct.”
While the lack of investigation into disruption is
not fatal to a finding of disruption to enable Metro to
prevail on the Pickering balancing, it certainly does
not help Metro. See Rankin, 483 U.S. at 389 (noting
that the petitioner “did not even inquire into whether
the [respondent-employee’s] remark had disrupted
the work of the office.”); Goza, 2019 WL 2484091, at
*10 (noting public employer’s lack of investigation into
the extent of disruption, including the absence of any
interviews of complainant-customers of public employer
to determine whether they would boycott the services

App.78a
of the public employer or refuse to allow the plaintiff
to service them).
The Court next considers the import of the jury’s
finding that Plaintiff’s Facebook comment impaired
the mission of the ECC. From the evidence and
argument at trial, the Court concludes that the jury
must have had in mind one or both of two forms of
undermining the ECC’s mission. The first possible
form is precisely what the Court just reviewed—namely,
that the “mission” of the ECC was undermined by
impairing to a degree the harmonious relations among
ECC’s various call-takers and dispatchers that are, in
a sense, a part of ECC’s mission.16 But such impairment,
whether or not considered an undermining of ECC’s
mission, does not get Metro very far, for the reasons
set forth above.
The second possible form of undermining is the
effect of Plaintiff’s Facebook comment upon public
perception of the ECC, More specifically, the ECC’s
mission is to help all citizens, regardless of race (and
surely, other personal characteristics), and Plaintiff’s
Facebook comment threatens both to cast doubt in the
public mind that ECC employees will provide raceneutral emergency service and to discourage African
Americans, due to such doubt, from calling 9-1-1 to
reach the ECC in the first place
The Court recognizes that the jury almost surely
found this particular form of undermining of the ECC’s
16 On the other hand, harmonious working relationships are
probably more appropriately considered a means of accomplishing,
rather than a component of, the ECC’s “mission,” but the Court
is viewing the jury’s finding as broadly as it conceivably can so
that Metro is not short-changed in the Pickering balancing.

App.79a
mission. This does count as weight on Metro’s side in
the Pickering balancing. Still, the Court believes that
the weight is relatively slight, for several reasons.
First, although there is an articulable connection—as
just stated—between ECC’s mission and Plaintiff’s
personal comments made outside of work regarding
non-ECC matters, this is far from the closest “relationship between the speaker’s expression and employment,” Garcetti, 547 U.S. at 418, a relationship to which
the Supreme Court has specifically attached importance.
Id. In short, the Court understands Metro’s concerns
here; they are neither irrational, insignificant, or
frivolous. But they are attenuated. Like the concerns
of the public employer in Rankin, “[a]t some point, such
concerns are so removed from the effective functioning
of the public employer that they cannot prevail over
the free speech rights of the public employee.” 483
U.S. at 391. The Court believes that that point has
been reached in this case due to the fairly remote
connection between Metro’s concerns and the “effective
functioning of” the ECC.
Second, at trial Metro introduced evidence of only
a single member of the public expressing concern over
the possibility that Plaintiff would not provide equal
service to African Americans. Moreover, the Court
did not discern any evidence at all that by the time
Plaintiff was terminated on January 10, 2017, Ms.
Donnegan had some basis to believe that other members
of the community likely would have the same concern.
To the extent that Metro does rely on fears still
existing on the day of Plaintiff’s termination (January
10, 2017) that her Facebook post might still “go viral,”
unexpectedly or unpredictability bringing in a wave of
new complainants or general discontent from the

App.80a
public, the likelihood of this actually happening was
not established at trial. And in any event:
The fear of “going viral,” by itself, does not
appear to be a reasonable justification for a
restriction on an employee’s speech. To hold
otherwise would permit the government to
censor certain viewpoints based on the whims
of the public—or, worse, based on a government official’s speculation as to the public’s
eventual reaction. See George S. Scoville III,
Purged by Press Release: First Responders,
Free Speech, and Public Employment Retaliation in the Digital Age, 97 Or. L. Rev. 477,
528 (2019) (positing that a “gap in freespeech jurisprudence” that has not yet fully
adapted to the social media age “incentivizes
municipal employers to . . . punish employees
on the basis of the content of their speech . . . or
censor a particular viewpoint.”) “The advent
of social media does not . . . provide a pretext
for shutting off meaningful discussion of
larger public issues in this new public sphere.”
Liverman v. City of Petersburg, 844 F.3d
400, 414 (4th Cir. 2016).

See Goza, 2019 WL 2484091, at *10.
Third, the Court views it as highly speculative
that even if an African American were familiar with
Plaintiff’s Facebook comment and was offended by it,
such African American would be deterred from calling
in an emergency. The Court can well envision such a
potential caller being motivated to call 9-1-1 in any
event, disinclined to believe that he or she is likely to
get a call-taker biased against African Americans, and
disinclined to believe that any such biased call-taker

App.81a
would necessarily recognize an African American
caller as African American anyway.17 Depending on
the caller involved, anything in this regard is possible—
but nothing in this regard is reasonably likely.
Fourth, and related to the fact that Plaintiff is
only a single call-taker, who well might not be credited
by African American callers to determine who is and
is not American African, is the fact that she is a calltaker. That is not say, while she does serve an
(anonymous, as far as the Court can tell) publiccontact role with ECC, she serves no confidential or
policymaking role—a fact which serves to minimize
the disruption (and damage to the mission) she can
cause to her office based on the public-contact role
that she does have. See Rankin, 483 U.S. at 390-91.
Fifth, the Court is hesitant to place too much stock
in public perception, which by itself cannot justify a
restriction on free speech. See Goza, 2019 WL 2484091,
at *1.

17 In the Court’s view, Metro did nothing to dispel the Court of
this vision. Among other things, it did nothing to explain why a
racially-biased call-taker would actually know—or be suspected
by a caller of knowing—whether a caller was African American.
For its part, the Court is loath to assume that what the Court
gathers would be the only available data points from which such
knowledge could be gained—the address provided by the caller
and the sound of the caller’s voice—would necessarily reveal (or
be assumed by the caller to be capable of revealing) whether the
caller is African American.

App.82a
CONCLUSION
The ultimate issue at this stage of this case is not
the extent to which use of the N-word generally, or
Plaintiff’s use of the N-word, is offensive. Nor is the issue
the extent to which complainants who saw Plaintiff’s
Facebook comment were justified in feeling offended and
hurt. Nor is the issue the extent to which Plaintiff’s
superiors were justifiably concerned when they learned
of Plaintiff’s Facebook comment. These issues have
present relevance to the extent indicated above. But
the overarching issue at present is whether Plaintiff’s
Facebook comment was constitutionally protected
speech.
For the reasons set forth above, the Court finds
that it was. Plaintiff made what the Court concludes
was an “ill-considered—but protected—comment.”
Rankin, 483 U.S. at 394. Although the goal of ECC
leadership to head off possible racial tension from
Plaintiff’s comment was laudable, its primary tool for
achieving that goal was to terminate Plaintiff for
protected speech. At heart, this case is like Meyers,
where the evidence was “straightforward”: the plaintiff
suffered an adverse action simply because several of
his co-workers did not like what he had to say, and
thus left the public employer far short of trumping the
employee’s rights to free speech. 934 F.2d at 730. In
the instant case, it is understandable that Plaintiff’s
co-workers did not at all like what she had to say, but
that does not make it any less protected under the
First Amendment. And the factors Metro otherwise
relies on to show that what she had to say is
unprotected fail to make that showing.

App.83a
Accordingly, the jury has been instructed, and
required to deliberate, regarding what the Court has
referred to as “Phase II,” wherein the jury’s responsibility
is to determine whether Metro is liable for First
Amendment retaliation and, if so, in what amount.
IT IS SO ORDERED.
/s/ Eli Richardson
United States District Judge

App.84a
JUDGMENT IN A CIVIL CASE
(JUNE 25, 2019)
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
________________________
DANYELLE BENNETT,

Plaintiff,
v.
METROPOLITAN GOVERNMENT OF NASHVILLE
AND DAVIDSON COUNTY, TENNESSEE,

Defendant.
________________________
No. 3:17-cv-00630
Before: Eli RICHARDSON,
United States District Judge.
Jury Verdict. This action came before the Court for a
trial by jury. The issues have been tried and the jury
returned its verdict.
IT IS ORDERED AND ADJUDGED that the jury
found in favor of Plaintiff on her First Amendment
retaliation claim. The jury awarded Plaintiff $6,500 in
back pay and $18,750 for humiliation and embarrassment. Accordingly, judgment is entered in favor of
Plaintiff in the amount of $25,250.

App.85a
Kirk Davies, Clerk
By: /s/ Julie Jackson
Deputy Clerk
DATE: June 25, 2019

App.86a
VERDICT FORM
(JUNE 24, 2019)
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
________________________
DANYELLE BENNETT,

Plaintiff,
v.
METROPOLITAN GOVERNMENT OF NASHVILLE
AND DAVIDSON COUNTY,

Defendant.
________________________
No. 3:17-cv-00630
Before: Eli RICHARDSON,
United States District Judge.
1.

Do you find that the Plaintiff has proven by a preponderance of the evidence that an adverse action
was taken against her that would deter a person
of ordinary firmness from continuing to engage in
constitutionally protected conduct (i.e., using the
term “niggaz” when expressing her views
regarding the outcome of a national election on
Facebook)?
__√ __ Yes

No

App.87a
2.

Do you find that the Plaintiff has proven by a preponderance of the evidence that the adverse
action was motivated at least in part by her constitutionally protected conduct (i.e., using the term
“niggaz” when expressing her views regarding
the outcome of a national election on Facebook)?
__√ __ Yes

No

(If your answer is "NO," proceed to the end of this
Verdict Form, sign and date the form, and notify the
Court Security Officer that you have reached a
verdict. If your answer is "YES," proceed to the next
question.)

3.

Under the law as given to you in these instructions,
do you find that the Plaintiff is to be awarded
damages?
__√ __ Yes

4.

No

If the Plaintiff is to be awarded damages, what
amount of damages, if any, did Plaintiff prove by
a preponderance of evidence:
Back pay:
$6500.00
(Six thousand five hundred dollars)
Humiliation and Embarrassment:
$18725.00
(Eighteen thousand seven hundred
twenty-five dollars)

SIGN AND DATE THE VERDICT FORM
Xxxxxxxxx
Foreperson
Date 6/24/19

App.88a
SPECIAL VERDICT FORM
(JUNE 24, 2019)
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF TENNESSEE
NASHVILLE DIVISION
________________________
DANYELLE BENNETT,

Plaintiff,
v.
METROPOLITAN GOVERNMENT OF NASHVILLE
AND DAVIDSON COUNTY,

Defendant.
________________________
No. 3:17-cv-00630
Before: Eli RICHARDSON,
United States District Judge.
We, the jury, find as follows:
1. Was Plaintiff’s Facebook comment reasonably
likely to impair discipline by superiors at the
Emergency Communication Center?
____ Yes

√

No

App.89a
2. Was Plaintiff’s Facebook comment reasonably
likely to have a detrimental impact on close working
relationships at the Emergency Communication Center?
__√ __ Yes

No

3. Was Plaintiff’s Facebook comment reasonably
likely to impede the performance of Plaintiff’s duties
at the Emergency Communication Center?
____ Yes

√

No

4. Was Plaintiff’s Facebook comment reasonably
likely to interfere with the orderly operation of the
Emergency Communication Center?
____ Yes

√

No

5. Was Plaintiff’s Facebook comment reasonably
likely to undermine the mission of the Emergency
Communication Center?
__√ __ Yes

No

App.90a
6. For what reason or reasons did Defendant
terminate Plaintiff? (Check ALL that apply. If you
conclude that Defendant had any additional reason or
reasons for Plaintiff’s termination, please indicate
those reasons in the portion marked “Other.”).
____ For expressing her views regarding the
outcome of a national election on Facebook
_√__ For using the term “niggaz” when expressing her views regarding the outcome of a
national election on Facebook
____ For lack of accountability. If so, please
describe what it was for which Metro claims
Plaintiff was not accountable:

____ For the workplace disruption her Facebook
comment caused
Other: Because the box we checked above violated
Charge 1, 2, and 3 of Plaintiff’s termination
letter.
SIGN AND DATE THE VERDICT FORM
Xxxxxxxxx
Foreperson
June 24, 2019

App.91a
ORDER OF THE UNITED STATES COURT OF
APPEALS FOR THE SIXTH CIRCUIT DENYING
PETITION FOR REHEARING EN BANC
(NOVEMBER 6, 2020)
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
________________________
DANYELLE E. BENNETT,

Plaintiff-Appellee,
v.
METROPOLITAN GOVERNMENT OF NASHVILLE
& DAVIDSON COUNTY, TENNESSEE,

Defendant-Appellant.
________________________
No. 19-5818
Before: DAUGHTREY, GIBBONS, and
MURPHY, Circuit Judges.
The court received a petition for rehearing en banc.
The original panel has reviewed the petition for
rehearing and concludes that the issues raised in the
petition were fully considered upon the original
submission and decision of the case. The petition then
was circulated to the full court. No judge has requested
a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

App.92a
Entered By Order of the Court
/s/ Deborah S. Hunt
Clerk

